<html>
<title> - HEARING ON SCIENTIFIC OBJECTIVES FOR CLIMATE CHANGE LEGISLATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    HEARING ON SCIENTIFIC OBJECTIVES FOR CLIMATE CHANGE LEGISLATION 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            February 25, 2009

                               __________

                            Serial No. 111-1

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-224 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

























                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       DAVE CAMP, Michigan
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            SAM JOHNSON, Texas
JOHN LEWIS, Georgia                  KEVIN BRADY, Texas
RICHARD E. NEAL, Massachusetts       PAUL RYAN, Wisconsin
JOHN S. TANNER, Tennessee            ERIC CANTOR, Virginia
XAVIER BECERRA, California           JOHN LINDER, Georgia
LLOYD DOGGETT, Texas                 DEVIN NUNES, California
EARL POMEROY, North Dakota           PATRICK J. TIBERI, Ohio
MIKE THOMPSON, California            GINNY BROWN-WAITE, Florida
JOHN B. LARSON, Connecticut          GEOFF DAVIS, Kentucky
EARL BLUMENAUER, Oregon              DAVID G. REICHERT, Washington
RON KIND, Wisconsin                  CHARLES W. BOUSTANY, JR., 
BILL PASCRELL, JR., New Jersey           Louisiana
SHELLEY BERKLEY, Nevada              DEAN HELLER, Nevada
JOSEPH CROWLEY, New York             PETER J. ROSKAM, Illinois
CHRIS VAN HOLLEN, Maryland
KENDRICK B. MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama
DANNY K. DAVIS, Illinois
BOB ETHERIDGE, North Carolina
LINDA T. SANCHEZ, California
BRIAN HIGGINS, New York
JOHN A. YARMUTH, Kentucky
             Janice Mays, Chief Counsel and Staff Director
                   Jon Traub, Minority Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


















                            C O N T E N T S

                               WITNESSES

                                                                   Page
Dr. James Hansen, Adjunct Professor, The Earth Institute at 
  Columbia University, New York, New York........................     6
Dr. Brenda Ekwurzel, Climate Scientist, Union of Concerned 
  Scientists.....................................................    10
Dr. John Christy, Distinguished Professor of Atmospheric Science 
  and Director of the Earth System Science Center, University of 
  Alabama in Huntsville, Huntsville, Alabama.....................    24

                       SUBMISSIONS FOR THE RECORD

Laurie Williams and Allan Zabel, Statement.......................    62
Paul G. Gaffney II, Statement....................................    67
Richard Pauli, Statement.........................................    70
Wayne Pacelle, Letter............................................    73


    HEARING ON SCIENTIFIC OBJECTIVES FOR CLIMATE CHANGE LEGISLATION

                              ----------                              


                      Wednesday, February 25, 2009

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 1100, Longworth House Office Building, Hon. Charles B. 
Rangel, (Chairman of the Committee) presiding.


ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
February 18, 2009
FC-1

                  Chairman Rangel Announces Hearing on

                       Scientific Objectives for

                       Climate Change Legislation

    House Ways and Means Committee Chairman Charles B. Rangel today 
announced that the Committee on Ways and Means will continue its series 
of hearings on climate change. The next hearing will take place on 
Wednesday, February 25, 2009, in 1100 Longworth House Office Building, 
beginning at 10:00 A.M.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing. A list of invited 
witnesses will follow.
      

BACKGROUND:

      
    During the 110th Congress, the Committee on Ways and Means began a 
series of hearings on climate change. In the first hearing, the 
Committee heard testimony that human greenhouse gas emissions are 
having an adverse impact on our planet's climate. In the second 
hearing, the Committee heard testimony from numerous witnesses 
recommending that Congress implement revenue measures (e.g., auction-
based cap-and-trade proposals or carbon taxes) that would reduce human 
greenhouse gas emissions. In connection with the development of these 
revenue measures, witnesses at this hearing also encouraged the 
Committee to (1) promote a comprehensive global effort to address 
climate change and to ensure a level regulatory playing field for U.S. 
manufacturers, (2) mitigate higher energy costs borne by consumers, and 
(3) maximize the impact that climate change legislation will have on 
growing the U.S. economy.

    In announcing this hearing, Chairman Rangel said, ``The development 
of climate change legislation will be a priority for the Ways and Means 
Committee during the 111th Congress. The Committee must define the 
environmental objectives that we hope to achieve with climate change 
legislation before we can design such legislation. These objectives 
must be based on science.''
      

FOCUS OF THE HEARING:


    The hearing will focus on a scientific discussion of the objectives 
that climate change legislation should seek to achieve.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Committee Hearings''. Select the hearing for which you would like to 
submit, and click on the link entitled, ``Click here to provide a 
submission for the record.'' Once you have followed the online 
instructions, complete all informational forms and click ``submit'' on 
the final page. ATTACH your submission as a Word or WordPerfect 
document, in compliance with the formatting requirements listed below, 
by close of business Wednesday, March 11, 2009. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http:waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman RANGEL. The Committee will come to order. I want 
to thank the Members that are here. I am certain others will be 
coming soon.
    I want to thank the Committee Members and our witnesses for 
joining us on what may not be a historic occasion, but 
certainly indicating that the Congress is prepared to move on 
this very, very important issue.
    Our President has spoken to this issue. The Speaker has. I 
am certain we all agree that we have a responsibility to 
continue.
    This is the third hearing that we have had on climate 
change legislation. The whole world is watching, not 
necessarily this Committee, but certainly the direction in 
which the Congress is going to go.
    We hope that our colleagues on the other side of the aisle 
will cooperate in trying to set up some type of a taskforce 
with other Committees of jurisdiction so we can see what, if 
any differences we had, so we can make certain that we get all 
the ideas on this very complex subject in line.
    We think we have enough scientific evidence to move forward 
on this, the distribution of resources that will have to be 
collected is a very complex problem.
    I want to first welcome Dr. James Hansen, who has an 
international reputation for expertise in this area, spending 
decades bringing this to the attention of the American people 
and the world, sounding the alarm as early as in 1988 when he 
was in testimony before the Congress, who raised awareness of 
global warming issues.
    Your leadership has been appreciated. It is invaluable. We 
are really grateful that all of you have adjusted your 
schedules to share your very, very important views with us.
    I want to welcome Dr. Brenda Ekwurzel, who joins us today 
representing the Union of Concerned Scientists. It is a science 
based non-profit organization.
    The Union of Concerned Scientists recently released the 
U.S. scientists and economists' call for a swift and deep cut 
in greenhouse gas emissions, and we are honored and pleased 
that you have presented yourself to us as well as 1,700 
scientists and economists with expertise in dealing with this, 
and we thank you again.
    I also would want to include in our welcome to Dr. John 
Christy, who is a distinguished professor of atmospheric 
science and director of the Earth Science Center at the 
University of Alabama in Huntsville.
    He has served the State since 2000 and brings with him a 
great resume of experience in this area.
    Since you all have been pioneers and recognized the serious 
nature of this issue, and I hope you are pleased to know that 
our national leadership has agreed that it is time to stop 
talking and to move and to continue to call upon your expertise 
as we prepare a bill to present to the President of these 
United States.
    I would like to yield to Jim Camp on this sensitive 
subject.
    Mr. CAMP. It is Jim McCrery and Dave Camp.
    Chairman RANGEL. I am sorry.
    Mr. CAMP. Thank you. Thank you, Mr. Chairman. I want to 
thank you before we get into the substance of this hearing for 
exerting our jurisdiction over this issue.
    This is an important issue. It is an issue with significant 
revenue ramifications, and the Committee on Ways and Means 
needs to be very importantly involved in it.
    As Dr. Hansen, the witness, notes--I want to thank all the 
witnesses for being here--he notes in his written testimony, 
primarily on the cover, that tax and trade is 
``pseudonymously'' and sometimes disingenuously termed ``cap 
and trade.''
    I am not sure I could have better stated that fact, that 
the so-called cap and trade measure is a revenue measure. That 
should originate in the House, and more specifically, it should 
originate in this Committee.
    The question of this hearing is what are the scientific 
objectives for climate change legislation, and I would like to 
take a step back and ask what is the science of climate change, 
what can it definitely tell us, can it say who is responsible 
for it, can it tell us what impact we can have on it, and if we 
can, what are the results both positive and negative.
    From what I have read, there remains still a great deal of 
uncertainty with regard to the scientific evidence about 
climate change. However, I do think you can find virtually 
unanimity, and that is in acting alone, the United States can 
do very little if anything to reduce global greenhouse gases.
    Unless larger emitters like China and India agree to 
binding reductions in their emissions, there will be no 
benefit, only significant job losses here in the U.S.
    Let me repeat that. Unilateral action by the United States 
will not reduce greenhouse gas emissions in any significant 
way, but it will reduce U.S. economic growth and destroy 
millions of American jobs, especially in the manufacturing 
sector. In a state like Michigan, that is absolutely critical.
    Those jobs are the backbone of our economy as well. That is 
because at its core, any tax and trade plan is designed to 
increase the cost of energy. Energy that fuels our cars, lights 
our homes, powers our assembly lines, and ensures an affordable 
food supply.
    Even if we ask the American worker to make this economic 
sacrifice, there are no guarantees that China and India will 
follow suit. In fact, the Chinese and Indians have made it very 
clear that they will not agree to any reductions in emissions 
but instead expect millions of dollars of U.S. aid and 
technology.
    When asked about capping China's greenhouse gas emissions, 
Ma Kai, head of the country's National Development and Reform 
Commission, said and I quote ``Our general stance is that China 
will not commit to any qualified emission reduction targets.''
    Similarly, Shyam Saran, India's principal negotiator on 
climate change, when asked about his country's interest in 
capping its greenhouse gas emissions, said and I quote again 
``Industrialized countries should meet their own commitments in 
the fight against climate change rather than asking countries 
like India and China to cap greenhouse gas emissions. We do not 
want to announce targets which we have no intention of 
achieving.''
    Many of you have heard the Chairman and I discuss the need 
to work in a bipartisan fashion on this Committee, so before I 
yield back, I just want to comment that before Members vote to 
eliminate millions of American jobs, let us find out if an 
economy-choking solution will actually provide any measurable 
benefit.
    I expect all of our witnesses today will caution that the 
U.S. acting alone cannot make a bit of difference in actually 
changing the climate.
    With that, I yield back the balance of my time and thank 
you again, Mr. Chairman.
    Chairman RANGEL. Thank you, Mr. Camp. I now have the great 
honor of calling on Dr. Hansen, who certainly has done a 
yeoman's job of bringing this serious problem to the attention 
of our great country and the world, and I hope all three of you 
will make yourself available as we move forward in trying to 
get these ideas in a legislative form.
    Dr. Hansen, thank you once again. I look forward to your 
testimony.

  STATEMENT OF JAMES E. HANSEN, ADJUNCT PROFESSOR, THE EARTH 
           INSTITUTE AT COLUMBIA UNIVERSITY, NEW YORK

    Mr. HANSEN. Thank you, Chairman Rangel and Mr. Camp.
    We have a planet in peril. The President recognizes this. 
The situation is clear. Evidence from the Earth's history and 
ongoing global climate changes reveal that the ``dangerous 
level'' of atmospheric carbon dioxide is much less than was 
believed even recently.
    The safe level is no higher than 350 parts per million, 
probably less than that. We just passed 385 ppm.
    Climate change threatens everyone, especially our children 
and grandchildren, the young and the unborn, who will bear the 
full brunt, through no fault of their own.
    It is clear that we cannot burn all fossil fuels releasing 
the waste products into the air without handing our children a 
situation in which amplifying feedbacks begin to run out of 
their control, with severe consequences for nature and 
humanity.
    We have to face the truth. We cannot burn all of the coal, 
let alone unconventional fossil fuels such as oil shale, unless 
the combustion products are all captured and disposed of, which 
is implausible.
    The Obama Administration has taken steps that may lead to 
improved vehicle efficiencies and reduced coal use. These 
actions are necessary and important but they will be effective 
only if we address the root cause of the problem.
    The root cause is our failure to make polluting fossil fuel 
energy more expensive than clean energy. We must put a price, a 
rising price, on carbon emissions.
    There are two competing ways to achieve this price. One is 
tax and 100 percent dividend. Tax carbon emissions but give all 
of the money back to the public on a per capita basis.
    For example, let us start with a tax large enough to affect 
purchasing decisions, a carbon tax that adds one dollar to the 
price of a gallon of gas. That is a carbon price of about $115 
per ton of CO<INF>2</INF>. That tax rate yields $670 billion 
per year.
    We return 100 percent of that money to the public, each 
adult legal resident gets one share, which is $3,000 per year, 
$250 per month deposited in their bank account. Half shares for 
each child up to a maximum of two children per family, so a tax 
rate of $115 per ton yields a dividend of $9,000 per year for a 
family with two children, $750 per month.
    The family with carbon footprint less than average will 
make money. That dividend would exceed their tax.
    This tax gives a strong incentive to replace inefficient 
infrastructure. It spurs the economy and it spurs innovation.
    This path can take us to the era beyond fossil fuels, leave 
most remaining coal in the ground, and avoid the need to go to 
extreme environments to find every drop of oil.
    We must move beyond fossil fuels anyhow, so why not do it 
sooner for the benefit of our children. Not to do so and 
knowing the consequences is, I think, immoral.
    The tax rate likely must increase in time, but when gas 
hits $4 per gallon again, most of that $4 will stay in the 
United States as dividends. Our vehicles will not need as many 
gallons. We will be well on the way to energy independence.
    The alternative to carbon tax and 100 percent dividend is 
tax and trade foisted on the public under the pseudonym ``cap 
and trade.'' A cap increases the price of energy as a tax does. 
It is wrong and disingenuous to try to hide that fact, to hide 
the fact that cap is a tax.
    Other characteristics of the cap approach include one, 
unpredictable price volatility. Two, it makes millionaires on 
Wall Street and other trading floors at the public expense. 
Three, it is an invitation to blackmail by utilities who 
threaten blackouts coming to gain increased emission permits. 
Four, it has overhead costs and complexities inviting lobbyists 
and delaying the implementation.
    The biggest problem with cap tax is that it will not solve 
the problem. The public will soon learn that it is a tax and 
because there is no dividend, the public will revolt before the 
cap tax is large enough to transform society.
    There is no way that the cap tax can get us back to 350 
parts per million of CO<INF>2</INF>. We need a tax with 100 
percent dividend to transform our energy systems and rapidly 
move us beyond fossil fuels.
    For the sake of our children and grandchildren, we cannot 
let the special interests win this fight. Thanks.
    [The prepared statement of James E. Hansen follows:]
 Prepared Statement of Dr. James Hansen, Adjunct Professor, The Earth 
 Institute at Columbia University, New York, New YorkTestimony Before 
         the House Committee on Ways and MeansFebruary 25, 2009
    Our planet is in peril.\1\ Climate disruption threatens everyone, 
but especially the young and the unborn, who will bear the full brunt 
through no fault of their own. Recent science makes it clear that if we 
continue to burn most of the fossil fuels we will leave our children a 
deteriorating situation out of their control.
---------------------------------------------------------------------------
    \1\ Clarification of the climate threat could usefully be obtained 
by requesting a report from the National Academy of Sciences. The 
Academy, established by Abraham Lincoln for the purpose of advising the 
President and Congress on important technical matters, is widely 
recognized as the most authoritative scientific body in the world.
---------------------------------------------------------------------------
    One scientific conclusion is crystal clear \1\: we cannot burn all 
of the fossil fuels without setting in motion a process of climate 
disruption that threatens the very existence of many species on our 
planet. This potential injustice is not limited to the innocent species 
we exterminate. The greatest injustice is to our own species \2\--our 
children, grandchildren and the unborn, and people who live with 
nature, who we may call `undeveloped', indigenous people who want only 
to live their lives without bearing burdens that we create.
---------------------------------------------------------------------------
    \2\ The Sword of Damocles: http://www.columbia.edu/jeh1/mailings/
2009/20090215_Damocles
.pdf
---------------------------------------------------------------------------
    The President deserves credit for recognizing that our planet is in 
peril, and his administration deserves credit for initial steps that 
may lead to increased vehicle fuel efficiencies and constraints on coal 
emissions. These steps are important. Greater fuel efficiency, e.g., is 
essential. But it must be recognized that these steps address the 
symptoms of the problem, not the root cause. Moreover, these steps will 
fail if the root cause is not addressed.
    The root cause is our failure to make polluting fossil-fuel energy 
more expensive than clean energy. Instead we subsidize fossil fuels!
    We must put a price on carbon emissions, a rising price. If we do 
this promptly we can stabilize the atmosphere and climate, with 
healthier air, improved agricultural productivity, clean water, an 
ocean providing fish that are safe to eat, with a reversal of the trend 
toward increased birth defects and other consequences of fossil fuel 
pollution in our air and water.
    Fossil fuels are finite. We must find clean energies to replace 
them. Why not do that sooner, rather than digging for every scrap of 
carbon, and in the process destroying the future of our children and 
grandchildren?
    The reason ``why not'' is this: the fossil fuel industry has 
enormous power over our governments, through their lobbying and 
``campaign'' contributions. Yet you and other leaders are elected to 
represent the public. The public expects you to look out after their 
children, to preserve creation, our children's heritage. Instead we are 
robbing money from our children's pockets and piggybanks, borrowing 
money from our children to fund subsidies for the fossil fuel industry.
    This selfishness is not limited to America. I wrote to government 
leaders of several countries that are believed to be among the 
``greenest'', one of them led by a physicist. I thought they would 
understand the clear scientific rationale that we must phase out coal 
use and move beyond fossil fuels, if we are to preserve a planet 
resembling the one we inherited from our elders. But I learned that the 
fossil fuel industries in those countries have enormous power, as they 
do here. Those governments are not green--they are black, coal black.
Carbon Tax and 100% Dividend
    If we continue to subsidize fossil fuels and do not impose a carbon 
price, our automobile manufacturers will likely fail--they are being 
instructed to build fuel-efficient vehicles, which will be in limited 
demand as long as fossil fuels do not have to pay their true costs. 
Similarly, ``renewable energy portfolios'' for utilities will rip off 
the public (rate-payers), with marginal benefit for the environment. 
Energy-inefficient buildings will continue to be built. And so on.
    The most honest effective way to achieve a carbon price capable of 
driving our economy and our society to the clean world of the future is 
``Carbon Tax with 100% Dividend'' \3\ For example, a carbon price 
equivalent to $1 gallon of gasoline (about $115 per ton of 
CO<INF>2</INF>), for 2007 rates of fossil fuel use in the United 
States, generates $670B. If we give one share to each legal resident 
age 22 and over, one half-share to college age youth (18-21), one half-
share to the parents of each child up to two children per family, that 
yields about 224 million shares in 2007 (this could be off by 10%; I 
could not find optimum census data). So the 100% Dividend for a $1 
gallon tax rate ($115 per ton of CO<INF>2</INF>) is:
---------------------------------------------------------------------------
    \3\ http://www.columbia.edu/jeh1/mailings/2008/
20080604_TaxAndDividend.pdf
---------------------------------------------------------------------------
    Single share: $3000/year ($250 per month, deposited monthly in bank 
account)
    Family with 2 children: $9000/year ($750 per month, deposited 
monthly in bank account)
    The tax rate and dividend should increase with time.\4\ This 
approach would reduce demand for fossil fuels, driving down the price 
of fossil fuels on the open market. The next time the price of gasoline 
reaches $4/gallon most of that $4 should be tax, with 100% of that tax 
returned to the public as dividend. Instead of our money going to the 
Middle East and other foreign places, most of it would stay at home.\5\
---------------------------------------------------------------------------
    \4\ The tax rate should increase until fossil fuel energy is not 
competitive with clean energy. The tax gathered, and thus the dividend, 
will initially increase as more clean energy enters the mix. But the 
dividend will enventually go down, as clean energy becomes ascendant. 
That is okay, because, as a result of competition, economies of scale 
and innovation, clean energy prices will fall. In addition, increased 
energy efficiency and conservation will reduce energy use per person.
    \5\ Two years ago I sat next to the Saudi Arabian Ambassador to the 
United States at a dinner. He became upset, politely, when I mentioned 
this concept of a carbon tax. Clearly, he understood the implications. 
He did not seem too concerned that it would be adopted--he probably 
took it for granted that fossil fuel special interests could overcome 
any wisdom of our law-makers.
---------------------------------------------------------------------------
    This tax, and the knowledge that it would continue to increase in 
the future, would spur innovations in energy efficiency and carbon-free 
energy sources. The dividend would put money in the hands of the 
public, allowing them to purchase vehicles and other products that 
reduce their carbon footprint and thus their taxes. The person doing 
better than average would obtain more from the dividend than paid in 
the tax. The tax would affect building designs and serve as an 
effective enforcer of energy efficient building codes that are now 
widely ignored. The need to replace inefficient infrastructure would 
spur the economy. Tax and 100% dividend can drive innovation and 
economic growth with a snowballing effect. Carbon emissions will 
plummet far faster than alternative top-down regulations. Our 
infrastructure will be modernized for the clean energy future. There 
will be no need to go to the most extreme environments on Earth for the 
last drop of fossil fuel, to squeeze oil from tar shale, or develop 
other unconventional fossil fuels.
    A tax on coal, oil and gas is simple. It can be collected easily 
and reliably at the first point of sale, at the mine or oil well, or at 
the port of entry. This approach also implies the fastest most 
effective way to international agreements. A proportionate duty should 
be applied to any imported products whose manufacture produced carbon 
emissions. The system could impose presumptive border taxes, allowing 
individual firms to prove that a lower rate should apply.\6\
---------------------------------------------------------------------------
    \6\ Metcalf-Weisback-Design of a Carbon Tax
---------------------------------------------------------------------------
    A carbon tax will raise energy prices, but lower and middle income 
people, especially, will find ways to reduce carbon emissions so as to 
come out ahead. Effects will permeate society. Food requiring lots of 
carbon emissions to produce and transport will become more expensive 
and vice versa. There will be a growing incentive for life style 
changes needed for sustainable living.
    One may ask: is there sufficient technology today, and just around 
the corner if the economic incentive exists, to allow phase out of coal 
emissions in the near term and other fossil fuels on a longer time 
scale? The answer is a clear ``yes'', as discussed in a workshop report 
\7\ (this report is a draft--criticisms would be welcomed). Indeed, 
Stoft \8\ shows that `Tax & Dividend' supports and makes more effective 
appliance efficiency standards and renewable portfolio standards. 
However, in order for energy efficiency and non-fossil energies to 
rapidly supplant fossil fuels, the carbon price should be substantial 
and rising.
---------------------------------------------------------------------------
    \7\ P. Kharecha et al. http://www.columbia.edu/jeh1/2009/
ECWorkshop_report.pdf
    \8\ S.E. Stoft http://stoft.com/ebooks/cap-secrets.pdf
---------------------------------------------------------------------------
Tax & Trade (a.k.a., `Cap & Trade', pseudonymously and sometimes 
        disingenuously)
    `Cap & Trade' increases costs to the public as does `Tax & 
Dividend', but without the dividend. Thus it should be termed `Tax & 
Trade'.\9\ Part of the reason for the pseudonym is to avoid the stigma 
of a tax, under the presumption that the public is too gullible to 
figure it out. Other parties support `Cap & Trade' because they hope to 
profit--it is a give-away to special interests, who feel, based on 
extensive empirical evidence, that they will be able to manipulate the 
program through their lobbyists. Except for its stealth approach to 
taxing the public, and its attraction to special interests, ``Cap & 
Trade'' seems to have little merit.
---------------------------------------------------------------------------
    \9\ Much of the support for Cap & Trade stems from the desire to 
avoid the term ``tax'' and create a real ``cap'' or declining limit on 
emissions. However, as shown in the European Emissions Trading Scheme 
and the Los Angeles RECLAIM program, among others, weaknesses in the 
cap-and-trade concept make it inapplicable to the climate crisis. 
Specifically, over-allocation of credits, lack of accurate measurement, 
fraudulent outside offsets, and the failure to create true incentives 
for early investments in clean energy technology and infrastructure 
will doom the prospects for real emissions reductions.
---------------------------------------------------------------------------
    Of course the proponents of `Cap & Trade' are not all special 
interests and their lobbyists, or people who hope to make millions on 
Wall Street from price volatility and manipulations. That is surely 
right. Many, without looking closely at the details, assume that the 
successful `Cap & Trade' used to help solve the acid rain problem, 
might be a good model for the climate problem. Acid rain was much 
simpler, partly because it was a program that required existing 
facilities to employ a relatively simple low-cost solution. Unlike 
climate change, the acid rain problem did not require massive 
investments in new infrastructure and innovation. Instead it required a 
group of existing facilities, with accurate emissions measurement, to 
make minor burner modifications and use readily available low-cost low 
sulfur coal. A few new rail lines were built and some facilities 
purchased more efficient scrubbers.\10\
---------------------------------------------------------------------------
    \10\ http://www.carbontax.org/blogarchives/2009/02/21/what-worked-
for-acid-rain-won%e2%80%99t-work-for-climate-change/
---------------------------------------------------------------------------
    Caps have not generally been applied at the mine or well-head, 
rather further downstream. Proponents of `caps' say they will try to 
push them upstream. That would open up consequences that now should be 
unacceptable to Americans: volatility, manipulation, and trading floor 
millionaires. Where would the millions come from--the common person, of 
course, the rate payer, the public.
    The abject failure of Cap & Trade was illuminated for all to see by 
the Kyoto Protocol, the granddaddy of all Cap & Trade schemes. Even 
countries that accepted the toughest emission reduction targets, such 
as Japan, saw their emissions actually increase. The problem is the 
inevitable loopholes in such complex approaches, which take years to 
negotiate and implement.
    The Congressional Budget Office \11\ provides a comparison of 
carbon taxes to cap-and-trade. That report concludes that a given 
emission reduction could be achieved at a fraction of the cost via a 
carbon tax, as opposed to cap-and-trade. Another useful comparison is 
also available.\12\
---------------------------------------------------------------------------
    \11\ Congressional Budget Office, ``Policy Options for Reducing 
CO<INF>2</INF> Emissions,'' February 2008, http://www.cbo.gov/ftpdocs/
89xx/doc8934/02-12-Carbon.pdf
    \12\ L. Williams and A. Zabel, http://www.carbonfees.org/home/Cap-
and-TradeVsCarbonFees.pdf
---------------------------------------------------------------------------
    The worst thing about cap-and-trade, from a climate standpoint, is 
that it will surely be inadequate to achieve the sharp reduction of 
emissions that is needed. Thus cap-and-trade would practically 
guarantee disastrous climate change for our children and 
grandchildren.\13\
---------------------------------------------------------------------------
    \13\ Brattle Group Report, CO<INF>2</INF> Price Volatility: 
Consequences and Cures, http://www.brattle.com/_documents/UploadLibrary 
/Upload736.pdf
---------------------------------------------------------------------------
    The only solution to the climate problem is to leave much of the 
fossil fuels in the ground. That requires a high enough carbon price 
that we move on to our energy future beyond fossil fuels.
Summary
    The honest approach, the effective approach, for solving the global 
warming problem would be a tax with 100% dividend. The public is not 
stupid. They will understand that the hooks and eyes of a less 
comprehensive more dissembling approach will be put there for some 
reason other than saving the future for their children.
    One of the biggest advantages of the Tax and Dividend approach is 
its simplicity, which would allow it to be introduced quickly. The 
Kyoto-like Cap & Trade is notoriously slow to negotiate and implement, 
as well as being ineffective in the end. A related point is that an 
effective international accord could be implemented with only a few of 
the major economies. Import duties on countries not imposing a 
comparable tax would surely bring broad rapid compliance.

                                 <F-dash>

    Chairman RANGEL. Thank you.
    We are now pleased to invite Dr. Brenda Ekwurzel who 
represents 1,700 climatic scientists, and we are anxious to 
hear your views. Thank you for being with us this morning.

   STATEMENT OF BRENDA EKWURZEL, CLIMATE SCIENTIST, UNION OF 
                      CONCERNED SCIENTISTS

    Dr. EKWURZEL. Thank you. Mr. Chairman and distinguished 
Members of the Committee, thank you for this opportunity to 
speak about climate science and policy as part of the Union of 
Concerned Scientists.
    UCS is a science based non-profit working for a healthy 
environment and a safer world.
    I am a geochemist with years of experience studying the 
Arctic. Back in September 1991, I was conducting research in 
the Arctic Ocean. As our ship approached the North Pole 
station, I expected to find a long and difficult passage 
through very, very thick ice. Instead, I was astonished to find 
lots of open water that we passed through easily.
    That was 17 years ago. Since then, the Arctic sea ice has 
shrunk and in 2007, it broke all records.
    The most important objective of climate change legislation 
is to avoid the worst consequences of global warming. There are 
common sense solutions that have profound benefits for public 
health, energy security, and our economy.
    In May of 2008, I joined with over 1,700 scientists and 
economists who hail from all 50 states calling on our Nation's 
leaders to cut heat-trapping emissions swiftly and deeply.
    This group also said the near term emission reductions 
could be done in a way consistent with sound economic policy.
    In my testimony, I will lay out reasonable goals that we 
can meet with the urgent time line that the science demands.
    These include faster than expected increases in sea level 
rise as shown by the satellite observations and Summer sea ice 
plummeting in the Arctic.
    An important fact that is often overlooked is this: We are 
diminishing the ocean's ability to absorb carbon dioxide from 
the atmosphere. We have dumped so much CO<INF>2</INF> into the 
air that it will take at least 1,000 years for the ocean to 
absorb most of this excess.
    This means that a ton of CO<INF>2</INF> that we emit today 
will leave more in the air than when we emitted a ton decades 
ago. Therefore, we cannot afford further delay.
    As you consider policies to reduce emissions, the basic 
questions you must consider are this: how much more of a 
temperature increase can we tolerate and what does this mean 
for the United States.
    First, an increase in global average temperature above more 
than two degrees Fahrenheit above today poses severe risks to 
natural systems, human health and our quality of life.
    To even have a 50/50 chance of preventing temperatures from 
rising above this level, we must stay below 450 parts per 
million of heat-trapping gases in the atmosphere. Remember, 
this is an absolute maximum. Recent scientific evidence 
suggests a lower goal may be even more prudent.
    What does the U.S. need to do? In the USC analysis that 
looked at current industrialized nations' share of global 
emissions and the U.S. share of that level of emissions, we 
found that the U.S. would be allotted a budget of 265 gigatons 
of carbon dioxide heat trapping gases between the years 2000 
and 2050.
    To stay within that budget would mean that we would have to 
reduce our emissions at least 80 percent by the year 2050. The 
earlier we cut emissions, the more flexibility we will have 
later, but if we delay until 2020, that means we would double 
our rate of emissions' reductions in order to avoid a crash 
finish.
    Additionally, decisions that industries make today have 
long lasting consequences. For example, coal plants can last 
upward of 60 years. Therefore, we must send the market a clear 
signal now to build energy infrastructure that will avoid 
dirtier consequences that would lock in irreversible 
consequences.
    The IPCC examined one scenario that had industrialized 
nations cutting between 35 and 50 percent below today's levels 
in order to stay below a 450 parts per million goal.
    For these reasons, USC thinks it is prudent to reduce U.S. 
emissions around 35 percent from today's levels, which is about 
25 percent below 1990 emission levels, by the year 2020. We 
project around 10 percent of these reductions can come from 
tropical forest protection and the rest can come from 
transport, electric and agricultural sectors of our economy.
    We recommend a comprehensive package of climate energy and 
policies in which a well designed cap-and-invest program is a 
foundation. The most effective means of limiting emissions 
sufficiently is to put a cap and set those limits directly in 
the legislation.
    Another benefit of a cap-and-invest program is we always 
keep the focus on the climate consequences we will avoid, which 
as a scientist, is very important to me.
    We also urge Members of Congress to include a rapid 
response science review provision in any climate legislation to 
ensure that government updates policies in light of the latest 
evidence.
    We look forward to working with Congress to help assure 
policy is designed well to achieve the needed emissions' 
reductions. Thank you.
    [The prepared statement of Brenda Ekwurzel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman RANGEL. Thank you.
    Dr. Christy may have a different idea, but we certainly do 
welcome your input into this very complex subject and look 
forward to working with you and your ideas as well.
    Thank you so much for coming. We are prepared to take your 
testimony.

 STATEMENT OF JOHN R. CHRISTY, ALABAMA STATE CLIMATOLOGIST AND 
    PROFESSOR OF ATMOSPHERIC SCIENCE, UNIVERSITY OF ALABAMA

    Mr. CHRISTY. Thank you, Mr. Chairman.
    I am John Christy, Alabama State's climatologist and 
professor of atmospheric science at University of Alabama at 
Huntsville, and a participant in many national and 
international climate panels, including the IPCC, as lead 
author.
    I really do appreciate this opportunity to speak. I want to 
bring some hard metrics to the hearing today.
    The first one comes from my testimony in Federal Court 
about California's proposed auto emissions standards that the 
EPA may allow to go forward.
    I calculated using IPCC climate models that even if the 
entire country adopts this rule, the net global impact would be 
at most one hundredth of a degree by 2100, and even if the 
entire world did the same, the effect would be less than four 
hundredths of a degree by 2100, an amount so tiny we cannot 
measure it with instruments or notice it in any way.
    The issue here is that the scale of global CO<INF>2</INF> 
emissions is enormous. I also determined the impact of an 
enormous construction project of 1,000 nuclear power plants to 
be operating by 2020, about 10 percent of the world's energy.
    The effect on global temperature would be only seven 
hundredths of a degree by 2050 and 15 hundredths by 2100. 
Again, we would not notice it, but it is a dent.
    I recall that John McCain wanted to build 45 nuclear 
plants, not 1,000.
    The point here is that the proposed actions that we can 
test to limit emissions will have little effect on whatever the 
climate will do, even if you assume a relatively high 
sensitivity of temperature to CO<INF>2</INF>.
    There is new information about that sensitivity. Current 
climate models assume that the global temperature is very 
sensitive to greenhouse gases. We are adding CO<INF>2</INF> to 
the air. There is no question about that. The real atmosphere 
has many ways to respond to that change that the extra 
CO<INF>2</INF> is forcing upon it.
    My colleague, Dr. Roy Spencer, has shown with satellite 
observations that during warming episodes, clouds respond by 
stepping up their cooling effect counteracting the warming.
    Not one climate model could demonstrate this cooling 
response. Rather, clouds in the models caused the opposite, 
further warming.
    We hypothesize that the poor cloud formulations are causing 
models to overshoot the observed temperature.
    Surface temperatures are often used to demonstrate global 
warming. I am one of the few in this science who actually 
builds these climate datasets from scratch.
    In several published papers, I have documented two serious 
problems that strongly suggest the surface warming of the past 
century is overstated.
    First, popular global datasets use only stations with easy 
to access data. I have published results for North Alabama, 
Central California, and soon, East Africa, where I went to the 
hard data to find sources to increase the number of stations 
tenfold. In each case, I found that the popular stations showed 
too much warming.
    Secondly, we have demonstrated that with the development of 
agriculture and urbanization, complicated processes are 
triggered which lead to higher night time temperatures which 
are not related to CO<INF>2</INF> emissions. Thus, the current 
land-based mean surface temperature charts overstate the 
temperature because they include these night time readings.
    In closing, we utilize carbon based energy not because we 
are bad people, but because it is the affordable foundation of 
our improving standard of living, our health and our welfare.
    I was a missionary and science teacher in East Africa and 
witnessed this simple rule: without energy, life is brutal and 
short.
    Worldwide, carbon-based energy demand will grow as Africans 
and others continue to experience improving technology, 
medicine, mobility and agriculture, and reap the benefits of 
higher standards of living. We will not stop human progress.
    Alabama's affordable energy has led to economic development 
in some of the poorest parts of our Nation, jobs, health care, 
educational opportunities and tax revenue.
    However, paraphrasing what one manufacturer said to me, 
Alabama is our last stop in the United States. If our energy 
costs rise, we will be taking these jobs to Mexico and China 
and manufacture our products with even more emissions than we 
create here.
    From my analysis, the major actions being considered to 
reduce emissions will one, have an imperceptible impact on 
whatever the climate will do, and two, make energy more 
expensive.
    We have found that climate models and popular surface 
temperature records overstate the actual changes that are 
occurring, and if Congress deems it necessary, the single most 
effective way to reduce carbon emissions by a small but at 
least detectable amount is through a massive nuclear power 
program. Other alternatives simply cannot produce enough power 
to be noticed. Thank you very much.
    [The prepared statement of John R. Christy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman RANGEL. Thank you so much.
    Dr. Hansen, whether we talk about a carbon tax or cap and 
trade, enormous amounts of moneys are to be raised as some type 
of deterrent or penalty on the energy producing company, which 
means, of course, that for the consumer, there will be a 
tremendous increase in costs.
    Could you share with us how you would suggest that the 
moneys raised be used to cushion the increase in costs, 
especially for lower income people?
    Mr. HANSEN. Yes. I think it is essential that we give back 
100 percent of the money that we take in the tax.
    Chairman RANGEL. How?
    Mr. HANSEN. With a dividend, with a monthly deposit in 
their bank accounts.
    Chairman RANGEL. If they do not have a bank?
    Mr. HANSEN. Then they get a check. That may have to be 
annual. It probably could be monthly by check also. Legal 
residents would get the dividend. As I pointed out, it is 
large. For example, at the rate of $115 per ton of 
CO<INF>2</INF> for a family with two children, it would be 
$9,000 a year.
    That would give them the money to invest in the 
technologies that would allow them to reduce their emissions. 
It would be a strong incentive to reduce their emissions, buy 
the most fuel efficient vehicles, insulate their homes, buy 
appliances that are more energy efficient.
    You have to give all the money back to the public or they 
are not going to allow such a high tax, but the low income 
person in particular is going to pay very close attention to 
this, and he will end up with more dividend, more return to 
money than he is paying in the tax.
    The whole idea is you have to affect--you apply the tax at 
the well head or at the mine, at the port of entry in the case 
of imported fossil fuels, but it has to cover coal, oil and gas 
entirely, with an uniform tax. That is the fair way to do it 
and affect the way the economic system works.
    Economists agree that is the way to do it. In fact, there 
was a study by the Congressional Budget Office that said it is 
five times more efficient than a cap, and it is much easier to 
implement. It is much simpler. It is much more honest.
    Chairman RANGEL. Dr. Ekwurzel, have the scientists given 
any thought of the redistribution of the revenue?
    Dr. EKWURZEL. Yes. Again, I am not an economist but 
economists that have been looking closely at this, in my 
conversations with them, they really emphasize the benefit of a 
cap and invest program is really a one-two punch.
    First, you actually set a limit on the emissions, which is 
the ultimate goal. We have to keep track of the goal. That 
ratchets down over time.
    The second step is it generates resources to transition to 
a clean energy economy which is for consumers, workers and low 
income communities, and a well designed cap and invest program 
would invest and buffer low income communities from the 
inevitable price changes that would happen as we transition, 
but also what is more important is it provides choices for 
those longer investments.
    We need to have cars that are getting us further down the 
road on a gallon of fuel. We need to have weatherization 
programs to buffer people, to have more energy efficiency, 
which is the low hanging fruit we have to deploy right away.
    If we do not reinvest into some of the rapid research and 
development and deployment of the new technologies while we are 
rolling out the stuff that is already off the shelf, I do not 
see how you get that without a cap and invest program where you 
can reinvest in a targeted and smart way.
    Chairman RANGEL. Thank you. Dr. Christy, I know you do not 
see this as a crisis, but do you see any problems in this area 
that we should be aware of at all?
    Mr. CHRISTY. I agree with one statement of Dr. Hansen. 
Well, a number of them actually, that taxing is more 
transparent than cap and trade. I am worried about that Alabama 
trucker who is an independent trucker and he pays thousands and 
thousands of dollars into that thing and only gets $3,000 back.
    Yes, I do not see it as a crisis. I happen to think it is 
still politically correct to manufacture the cars we drive and 
appliances we use and grow the food we eat right here.
    Other considerations might be useful here, more useful for 
the security of our nation to produce its energy locally, here, 
so there are a lot of ways by which you can go there.
    It certainly helps the balance of trade. It certainly keeps 
dollars within the country.
    How can we do that without making energy costs go up so 
that the jobs leave? That is really more of a question for your 
Committee, I think, than anything.
    Chairman RANGEL. Thank you. I yield to Mr. Camp.
    Mr. CAMP. Thank you, Mr. Chairman. Dr. Christy, I would 
just like to ask you, given the complexity of the global 
climate system, which all of you have testified to frankly, and 
given those factors, can you tell us what the impact would be 
on the global climate system if the United States alone were to 
completely eliminate all greenhouse gas emissions?
    Mr. CHRISTY. If the United States alone were to eliminate 
all greenhouse gas emissions, that would be equivalent to 
building 2,000 nuclear power plants. In 100 years, that would 
be about three-tenths of a degree, something we could measure 
with our instruments but we probably would not notice it at all 
in terms of what goes on in the climate system otherwise.
    Mr. CAMP. That is less than half of a degree by 2100?
    Mr. CHRISTY. That is correct; yes.
    Mr. CAMP. Is losing three million jobs worth half a degree 
by 2100?
    Mr. CHRISTY. I can just say from the State of Alabama's 
standpoint, we do not want to lose one job.
    Mr. CAMP. In your testimony, you have analyzed the rate of 
warming is less than what has been predicted by climate models. 
You talked about the research you have done.
    In contrast, Dr. Ekwurzel has said that the measure is 
really the amount of Arctic ice. That cover has changed 
dramatically, and that is showing that climate change is 
actually occurring faster than predicted.
    Can you explain this difference for those of us who are not 
scientists?
    Mr. CHRISTY. In the Arctic--there is a bigger question. We 
do create datasets that specifically test model projections. In 
virtually every case, we find the models are overshooting 
almost everything.
    In the ice case, it is a bit different. That is a very 
complicated system that climate models do not do well at 
describing at all. In fact, I just taught Monday on ice 
theology, on the dynamics of ice, to our graduate class in 
climate dynamics. Models do not have ice done well.
    There is high variability of that quantity. It goes up. It 
goes down. A thousand years ago, 5,000 years ago, there was 
less ice than there is now in the Arctic.
    I noticed that left out of this discussion was what 
happened in Antarctica, two weeks after the Arctic sea ice 
reached its ``record minimum,'' the Antarctic sea ice on the 
South Pole reached its all-time record maximum.
    Globally, right at that point, if you were to average it, 
we would have average sea ice. Right now, it is a bit below on 
the global average.
    The Arctic ice is a complicated thing. It has been missing 
before. It has melted before. This is something that has high 
variability in that part of the world.
    Mr. CAMP. Are factors causing that--are there factors other 
than CO<INF>2</INF> that would result in that? Obviously, if 
this has occurred over a 5,000 year period, and I presume 
that----
    Mr. CHRISTY. The climate system has so many degrees or so 
many loose handles to it, so to speak. No one really knows 
everything about the climate system so they can predict what it 
is going to do in the future.
    Let me just say yes, there are natural forces that have 
huge variations or cause huge variations in the Arctic ice.
    By the way, through this whole period, when the ice was 
much less and it was much warmer up there, the polar bears 
survived.
    Mr. CAMP. I think Dr. Hansen has written that global 
greenhouse gas emissions should be reduced to no more than 350 
parts per million. I asked you a question about total 
elimination of greenhouse gases.
    If they were reduced to that level, what would be the 
impact on the global climate system, in your opinion?
    Mr. CHRISTY. By what time at 350?
    Mr. CAMP. You name the timeframe, whether it is 100 years.
    Mr. CHRISTY. It is something I have not calculated because 
that is fewer emissions--that is a lower concentration than 
there is right now. I do not know how to get to there in 
reality.
    Mr. CAMP. Thank you. Thank you, Mr. Chairman.
    Chairman RANGEL. The Chair expects a vote soon. For the 
witnesses, we will be inconveniencing you because we expect to 
be on the Floor for several votes, which will take 
approximately 30 minutes.
    At this point in time, I would like to yield the Chair to 
my friend, Mr. Levin, who will proceed to call the witnesses 
until such time as the bells ring, and then we will resume the 
hearing as soon as the last vote takes place. I do not want to 
put any more inconvenience on these outstanding witnesses than 
our legislative agenda has.
    I do hope that each and every one of you recognize that we 
are only leaving and recessing because of the call of the Chair 
in legislating and voting.
    We want you to know both Mr. Camp and I are pleased you 
have inconvenienced yourselves to share the basis of your 
research over the years with us as we move forward on this very 
complicated but important legislation.
    I will be returning with the rest of the Members of this 
Committee. At this time, I yield to Mr. Levin from Michigan.
    Mr. LEVIN [presiding.] Thank you very much. Welcome.
    I want to ask the three of you to comment on Dr. Christy's 
testimony, so we get to the basic issue of whether there is a 
problem, and then others will question how we best solve it.
    Let me say to my colleague from Michigan, no one is talking 
about doing this thing alone. I think while it is not easy to 
carry that out, it is really a bit of a straw person to say we 
are going to do this alone.
    Secondly, I do not think any of us have to be told about 
the importance of manufacturing in this country. I just do not 
think that using that as an excuse to do nothing is tenable.
    The real challenge is how we combine our emphasis on 
manufacturing and other sources of jobs with addressing this 
issue of global warming.
    I must say that I think this division that is embodied in 
this testimony really is a threat to bipartisanship because if 
we start from opposite assumptions, we will never work out 
something together.
    I just to want to ask the two of you who disagree with Dr. 
Christy to comment on his two basic statements, and we have to 
resolve this if we are going to move on a bipartisan basis.
    He says actions being considered to stop global warming 
will have an imperceptible impact on whatever the climate will 
do.
    Each of you will have at best a minute, but be very 
pointed. Do not pull your punches because you are sitting there 
together.
    The second is we have found that climate models in popular 
surface temperature datasets overstate the changes in the real 
atmosphere and that actual changes are not alarming.
    We will start with you, Dr. Hansen, down the row, and then 
maybe Dr. Christy will have a chance to respond within my 5 
minutes. Maybe not. Others can carry that on.
    On those two statements, be very succinct.
    Mr. HANSEN. It is a tactic of those who want to do nothing 
to make it sound like there is a debate. In fact, I think that 
is the wrong road to go down. I think if there is any question 
about the reality of this, which scientifically, there is not, 
then you should ask, Congress should ask the National Academy 
of Sciences, which is the most authoritative scientific body in 
the world, to deliver a report back to Congress or the 
President should ask for that.
    The science has become crystal clear. There is an issue and 
we can see it happening. It is not based on climate models. It 
is looking at what is happening in the real world. Arctic sea 
ice is decreasing. The tundra regions at high latitudes are 
beginning to release methane. The ice sheets are now unstable 
and are losing mass at the rate of a couple of hundred cubic 
kilometers per year.
    The science is clear.
    Mr. LEVIN. Let me just go down the row. That green light 
will change to red soon. Dr. Ekwurzel?
    Dr. EKWURZEL. Thank you. Very quickly addressing one issue. 
It is very well known that we have driven the climate beyond 
all reasonable doubt, that it is a greater than 90 percent 
likelihood humans have caused global warming, the warming we 
have seen, above natural cycles since 1950.
    The models are in fact under-predicting the changes that we 
are observing on the ground, in the Arctic, and in Dr. Hansen's 
and many other temperature records that are out there, as well 
as many other changes that we are seeing with species 
migrations and so on, but, the models are not getting the pace 
of change because models tend to be conservative.
    They are not exactly accurate and they are not accurate in 
the wrong way for us, which means the urgency of action is even 
more prudent and we have to have the National Academy of 
Sciences reporting back so that Congress can know the latest 
science. Thank you.
    Mr. LEVIN. My time is up. Dr. Christy, maybe another will 
ask you to respond. I hope you might answer the question what 
happens if you are wrong.
    I think, Mr. Herger, you are next. I do not have the list.
    Mr. HERGER. Thank you, Mr. Chairman.
    I represent a rural northern California district with some 
nine national forests in it. We have experienced some very 
severe fires in the past year.
    It is my understanding that wild fires emit an average of 
105 million tons of greenhouse gases every year. Putting this 
number in perspective, it is about 40 percent more than the 
total emissions of all the cars in the State of California.
    As you noted in a 2004 article in ``Southwest Hydrology'', 
poor management practices have led to an excess of underbrush 
in western forests which contributes to the size and intensity 
of wild fires. This excess growth could be removed from the 
forests, thus reducing emissions from fires and used to produce 
renewable carbon-neutral biomass energy.
    Would you and your organization agree that one part of our 
effort to reduce greenhouse gas emissions should be responsible 
forest management to banned excess growth and if the risk of 
climate change is as severe as you have stated today, would you 
agree that the Committee should consider incentives for the 
production of clean energy from excess forest biomass?
    Dr. EKWURZEL. Thank you. You bring up a very important 
feedback mechanism that is amplifying global warning, and in 
contrast to that study, that article I wrote in ``Southwest 
Hydrology'', there have been since studies that also have 
looked at unmanaged forests at high elevation in the western 
states.
    What they found is when we have global warming amplifying 
the drying out of the soils of these high alpine systems, that 
by the time you get to the end of the summer, if there is a 
lightning strike, you can start a fire naturally but the extent 
of the damage can be quite immense.
    Without that managed forest system--these are natural 
systems, so we are seeing the global warming making it more 
likely that we are turning our forests into a tinder box, 
sending that precious stored carbon back into the air, making 
it harder for us.
    This is another mechanism in addition to the ocean slowing 
down its absorption of carbon dioxide, that it is getting 
harder for us to manage this system that we have unleashed by 
our excess carbon dioxide.
    Mr. HERGER. Again, my question is would your organization 
support our going in and thinning these forests, which we are 
not able to do right now, and also an incentive to do so?
    Dr. EKWURZEL. I am not a forest manager but I do understand 
that very smart forest management systems to adapt to the 
climate change that is happening would be prudent, but also we 
need to do mitigation of the climate change itself so that all 
of our good effort to preserve a forest does not go up in 
smoke.
    Mr. HERGER. Does that mean you would support this?
    Dr. EKWURZEL. I would have to see the details of what the 
management design----
    Mr. HERGER. Thinning these forests and getting at the 
problem that you have very accurately pointed out----
    Dr. EKWURZEL. I am not a forest manager. We need healthy 
forests and that means a biodiverse forest. It depends on what 
you mean by ``thinning.'' If you thin a forest so much, it 
could be an unhealthy environment and there are also pests such 
as the bark beetle that take advantage of the increased 
temperatures.
    It is a very difficult problem and it is out of my area of 
expertise.
    Mr. HERGER. You agree that they are far too dense now?
    Dr. EKWURZEL. I am not a forest manager. Thank you.
    Mr. HERGER. That is what your article referred to.
    Dr. Hansen, on December 29, 2008, you wrote on your website 
``It is essential that dogmatic environmentalists opposed to 
all nuclear power not be allowed to delay the research and 
development on fourth generation nuclear power.''
    Could you elaborate further on your views on nuclear power 
as part of the effort to address climate change?
    Mr. HANSEN. Yes. I think everyone hopes that increased 
energy efficiency--and that would be encouraged by a higher 
price on carbon emissions, and renewable energies--could do the 
job.
    Most energy experts are skeptical about that. They think we 
need base load power, and it cannot be coal if we are going to 
avoid climate catastrophes.
    I think we should do the research and development on an 
urgent basis to see what is the potential of fourth generation 
nuclear power. Fourth generation nuclear power could burn 
nuclear waste and help us solve the nuclear waste problem.
    We had our Argonne National Laboratory in the nineties 
ready to make a demonstration plant, but the Clinton 
Administration decided to stop the research on that, and I 
think that was a mistake.
    I am not sure that we need the nuclear power, but it looks 
like--China and India, it is a little difficult to see them 
using wind and solar to provide all of their energy. They are 
using mostly coal.
    If we are going to phase that out, which we have to do, 
then next generation nuclear power is a candidate that should 
be looked at.
    That is all I am saying. I am not saying we are ready to 
begin to implement it, but we should not be afraid to do the 
research and development and see what its potential is.
    Mr. HERGER. I could not agree more. Thank you very much.
    Mr. LEVIN. Mr. McDermott?
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    I put on the monitors the volatility in the cap and trade 
system in the European system. I really think our issue here is 
to decide between a carbon tax and a cap and trade system. To 
do nothing as Dr. Christy suggests or allow ourselves to be 
bullied or blackmailed by the industrialists of Alabama is not 
an option.
    What I would like the two of you to talk about between 
yourselves is why your system is better. My understanding is 
that the environmentalists would like to have an absolute cap 
and industry would like to have absolute certainty in the cost. 
Those seem to be the polar things that this Committee is going 
to have to balance off in any system.
    I would like to hear the two of you talk about why you are 
falling on one side and you are falling on the other.
    Dr. Hansen.
    Mr. HANSEN. Caps have several disadvantages, as I 
mentioned. They worked in the case of sulfur dioxide because 
you had a single source and you had relatively easy solutions 
to it.
    The Kyoto protocol is a perfect attempt. That is a cap 
system. It did not work at all, even the countries that claimed 
they were meeting their target, in fact, their emissions went 
up because there are escape valves.
    Cap and trade is good for lobbyists and speculators.
    Mr. MCDERMOTT. It looks like from that chart that is really 
what we are seeing.
    Mr. HANSEN. Yes; exactly.
    Mr. MCDERMOTT. The stock market makes a lot of money out of 
a system and there is nothing to put back into the system.
    Mr. HANSEN. Right. The tax is much more honest. 
Unfortunately, the main reason for a cap is for the sake of 
pretending that it is not a tax. In fact, either one increases 
the price of energy for the user. Either one is a tax. We 
should insist that the cap people call it a cap tax because 
that is what it is.
    Mr. MCDERMOTT. Dr. Ekwurzel?
    Dr. EKWURZEL. Thank you. I think we can draw upon the 
lessons from the European Union and their cap and invest 
program, as well as in the northeastern U.S. That is why we 
advocate for 100 percent auction that sufficiently has tight 
limits on emissions.
    The reason is that the European Union originally gave away 
free allowances. We saw this collapse of the price. It was not 
an assurance for someone at British Petroleum or the oil 
industry to be investing long term infrastructure decisions or 
a coal power plant designer to design next generation power 
plants.
    You cannot make that decision without some 40 year 
certainty, which a cap and invest program gives you because we 
are ratcheting down the cap over 40 years. That is a 40-year 
economic frame that business can work within, which is very 
attractive.
    Also, there is no guarantee that the use of funds in the 
dividend situation will go toward activities that will reduce 
emissions. Especially because we have not reinvested in a 
targeted way, we do not provide a guarantee that people will 
have choices available to them to purchase energy efficient 
homes, cars, and consumer goods through standards and 
investment and research to try to get more choices on the car 
dealership floor, for example.
    Mr. MCDERMOTT. In a cap and trade system, how do you deal 
with the impact on the lower income people in society who get 
hit with the cost of increased energy or fluctuating energy 
prices?
    Dr. EKWURZEL. Exactly. An attractive thing with the 
fluctuating prices is when you have a down turn in the economy, 
the price is going down, it is mimicking the economy. If we set 
a level, then you might have an undue burden across the board 
during the down turn in the economy, so the price following the 
economy is somewhat attractive.
    Also, my economist colleagues tell me that when you 
reinvest a well-designed cap-and-invest program, you buffer low 
income residents from the price spikes because we know we can 
have programs for weatherization of homes. We can have cash and 
dividends that are set out in a targeted way to those who are 
most vulnerable to the price change.
    Mr. MCDERMOTT. How do you give the oil or the energy 
entrepreneurs the ability to know what the price they are 
competing against is going to be?
    If you are going to build a solar plant, if you are going 
to build a wind plant, whatever, and the thing is jumping up 
and down, how do you know as an investor or a venture 
capitalist how you are going to put your money into that?
    Dr. EKWURZEL. Yes. I see we are running out of time. I am 
not an economist but what I understand, my colleagues tell me 
if, for example, on the acid rain program, the prices were the 
most efficient and low cost way to go because the market 
adjusted to the cap on sulfur emissions from that successful 
program. The prices were lower, and it was a much more 
efficient system and the acid rain problem was solved.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Mr. LEVIN. Five/six minutes. Mr. Brady, do you want to take 
three of those or do you want to wait?
    Mr. BRADY. That would be real quick, Mr. Chairman. I would 
like to submit a statement for the record dealing with this 
issue and its trade implications as well.
    Most of the legislation introduced in the last Congress 
that composed a cap and trade scheme on the U.S. include 
provisions to impose additional tariffs on imports from 
countries that do not have similar policies.
    This has significant trade implications for the United 
States, as well as developed and developing countries, which 
could result in violations of WTO obligations or inviting 
retaliatory measures.
    My belief, Mr. Chairman, is these consequences deserve a 
thorough and comprehensive examination by the Committee.
    I would submit that for the record.
    Mr. LEVIN. Without objection.
    [The prepared statement of the Hon. Kevin Brady follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. BRADY. Mr. Hansen, very quickly, how do you measure the 
amount of carbon--you are calling on a carbon tax on imports 
from other countries. How big would that tax be? How do you 
measure what the amount of carbon is in an import?
    Mr. HANSEN. The tax has to be large enough to affect 
people's decisions. I gave you an example of quite a large tax. 
You would impose presumptive import duty on any country that 
does not have comparable tax rate. That would allow them if 
they could show that their manufacturing did not use carbon, 
then you would allow them that option of proving that and then 
you remove that duty.
    Otherwise, you assume that the standard amount of carbon 
that is used in making that product has been used in their 
country.
    It is an easy way to make this international. While cap and 
trade, we negotiated 10 years and could not get everybody to 
agree to the Kyoto protocol. If you have a tax, all you need is 
a few major countries to agree to this and then they will say 
we will put an import duty on you if you do not have a similar 
tax.
    Very quickly they will realize you are collecting the money 
instead of us, so they will put a tax on it. That is the 
fastest way.
    Mr. BRADY. Would the EU and Australia that has cap and 
trade schemes be excluded from this carbon tax or included?
    Mr. HANSEN. A cap can be included amongst a system that has 
a tax and dividend. You can have internal to that some limited 
caps and trade on a given industry, for example.
    Mr. BRADY. Thanks, Dr. Hansen.
    Mr. LEVIN. Mr. Lewis had hoped to inquire. Do you want to 
be very brief so we can escape to vote?
    Mr. LEWIS OF GEORGIA. I will try to get it in, Mr. 
Chairman. Thank you very much, Mr. Chairman.
    Dr. Christy, are you suggesting that we do not do anything, 
that we do not use the Tax Code to do something about climate 
change, global warming?
    Mr. CHRISTY. I think what you are getting into here is 
changing behavior of people who have a fairly high standard of 
living, and that is going to be a very tough sell.
    Scientifically, the carbon dioxide is not a toxic gas. It 
does not harm anything in that way. Plants love it. They grow 
better with carbon dioxide.
    Its effect on the climate is the only thing at issue, and 
our studies show when we go and create the numbers and test 
these hypotheses, that these dramatic changes just are not 
occurring at the rate climate models say they are.
    I have the numbers right in the testimony.
    Mr. LEWIS OF GEORGIA. I do not want to cut you off but time 
is short and we have to go vote.
    Dr. Hansen said in his statement not to act is immoral. I 
notice you are a scientist but you also have a divinity degree. 
Does that not say something about what type of planet, what 
type of piece of real estate we are going to leave for the 
unborn generation?
    Mr. CHRISTY. I can say this, I have gone to a village like 
Kimahordery to tell the parents of a child that the child has 
died because they live in a place of very low standards of 
living. They will not stand for that because they love their 
children as much as we do and they are experiencing grief 
inconsolably. They need to increase their standard of living.
    Mr. LEWIS OF GEORGIA. Are you buying this line well, maybe 
China would not act or India would not act, so we will not act? 
Is this not something that says something is good in itself, to 
save the planet, that people have a right to know what is in 
the food we eat, what is in the water we drink, the air we 
breathe?
    Mr. CHRISTY. Carbon dioxide does not affect those things 
you just talked about. Yes, there are many reasons to find 
alternative energies than carbon based; many reasons. I 
mentioned some about the balance of trade or creating energy 
locally.
    We are Americans. We innovate. I think we will find new 
ways to create energy.
    Mr. LEWIS OF GEORGIA. We will threaten the planet, Dr. 
Christy.
    Mr. CHRISTY. In the datasets we create to test those very 
hypotheses, we do not see the planet threatened.
    Mr. LEWIS OF GEORGIA. I think Dr. Hansen will probably 
disagree with you.
    Mr. HANSEN. It is clear that we see things happening. The 
ocean is becoming more acid. That is not good for the life in 
the ocean. This is very clear. We are pushing the system well 
beyond limits which are going to have major consequences and 
already beginning to do so.
    Mr. LEVIN. We will stand in recess for about 20 minutes or 
so.
    [Recess.]
    Chairman RANGEL [presiding.] The Committee will resume the 
hearing. Again, I apologize to our distinguished guests. It is 
unavoidable.
    The Chair will recognize Mr. Ryan. He is not here. Mr. 
Linder of Georgia.
    Mr. LINDER. Thank you, Mr. Chairman.
    I think it is strange that we are sitting here today 
talking about making trillion dollar decisions based on 
computer models and what we have just been dealing with for the 
past 6 months as a trillion dollar collapse based on computer 
models.
    For 30 years, Wall Street got rid of their risk managers 
and replaced them with mathematicians and computer experts, and 
they gauged risk by algorithms. It appears that those computer 
models did not have a place for fear and greed, so it failed.
    Of the 20 or so climate computer models, none of them take 
into account natural impulses by nature. For example, Dr. 
Christy referred to the iris effect observed some years ago 
over the Equator with the natural release of heat, but not any 
of the computer models take into consideration the iris effect.
    We are told that the science is clear. I think Dr. Hansen 
said the science is clear. Others say the science is settled. 
In my 50 plus years observing science and being a part of it, I 
have never seen settled science. I do not believe there is such 
a thing, only settled scientists. Galileo would understand 
that. So, would Einstein.
    In fact, if the science was settled, not by observation in 
some instances, but by pencil and paper, it has been noted that 
the 1995 IPC report highlighted key phrases by the scientists 
who did the work.
    None of the studies said by clear evidence, we contribute 
it to humans, and five different ways were stated. All five of 
those statements were removed from the report and replaced by 
one, ``The biostatistical evidence in chapter eight when 
examined in the context of our physical understanding of the 
climate system, now points to a discernable human influence on 
the global climate.''
    When the bureaucrat was asked under oath why that change 
was made, he said immense pressure from the top of the Federal 
Government.
    I do not know what the ideal carbon dioxide level in the 
environment is. I think, Dr. Ekwurzel, said it should be 450 
parts per million max. I think Dr. Hansen said 350 parts per 
million.
    Either of you should then explain to us the experience 542 
million years ago, when in a very short period of time, all of 
plant and animal life that we have ever known came to be found 
in the fossil evidence within five to ten million years, in a 
blink of an eye in a four and a half billion year old planet.
    CO<INF>2</INF> levels were 7,000 parts per million. The 
planet not only survived, it thrived. 300 million years ago, 
the CO<INF>2</INF> levels were 2,000 parts per million. The 
planet did fine. It seems to me you need to explain that.
    It has been said here who is going to get hurt if we try 
this. Only the 1.6 billion most vulnerable people in the world. 
The people who are starving and consigned by this to a life of 
poverty and hunger because they need CO<INF>2</INF> to grow the 
plants to live. They need power.
    We have enjoyed it for 100 years. China and India are 
enjoying it now. The Sub-Sahara area in the African region 
desperately needs CO<INF>2</INF> to plant their farms, to feed 
their families.
    This is a huge mistake based on faulty computer modeling.
    Dr. Ekwurzel, you were astonished to sail into the Arctic 
and find very little ice there. That is what Emerson said in 
1903 when he sailed it in a sailboat. As Dr. Christy has 
pointed out many times here, these things change back and 
forth.
    This is based on computer modeling, not observation, 
because if it was based on empirical observation, you would 
note that the evidence of a hot spot over the Equator is 
absent, although on the 20 plus computer models, it is 
necessary.
    Dr. Christy, would you just comment on that?
    Mr. CHRISTY. Yes, the experiment was very simple or the 
paper we published. If a climate model has the same surface 
temperature record as the real observations, what happens in 
the upper air, and then we found a significant difference 
between observations and climate model estimates.
    Mr. LINDER. Thank you very much. I yield back.
    Chairman RANGEL. The Chair would like to recognize Richard 
Neal for 5 minutes.
    Mr. NEAL. Thank you, Mr. Chairman. I want to thank the 
panelists as well and thank the Chairman for scheduling this 
hearing.
    One of the verdicts that emerged from the last election was 
that we ought to proceed with our faith in science and how 
important that is to the debate on climate change.
    I have had a number of meetings in recent weeks with a lot 
of people who have wanted to discuss the Massachusetts' model 
as it relates to health care reform.
    I am pretty happy with the fact that Massachusetts has kind 
of led the way on how to proceed in the health care debate, and 
your presence today is helpful to this argument as well.
    If we use Massachusetts as the model of what we might do, 
Dr. Hansen, what would you suggest in terms of criticism of 
what some other countries have or have not done on the global 
warming front?
    Mr. HANSEN. Well, the principal criticism, what I have 
learned is that even the countries that seem to be the greenest 
where the politicians say they understand there is a global 
warming problem and they will take action, it turns out that 
the actions are inconsistent with that.
    In Germany, for example, I wrote a letter to the Chancellor 
and they asked me to come over and talk to them. They are 
saying they will have a cap on their emissions, but they are 
going to build 20 new coal fired power plants. You cannot do 
that and have any chance of getting CO<INF>2</INF> back to a 
safe level.
    There is a finite amount of carbon in oil, gas and coal. 
What we can see is oil and gas, which we are going to use, 
readily available oil and gas, it is going to get us well into 
the dangerous zone.
    The only way we can solve the problem is phasing out coal. 
I think the way to do that is with a price on the carbon 
emissions, but I do not think the governments have yet faced up 
to what is going to be needed in order to get us to a safe 
level of CO<INF>2</INF>.
    Mr. NEAL. Thank you, Mr. Chairman.
    Chairman RANGEL. The Chair now recognizes Mr. Tiberi.
    Mr. TIBERI. Thank you, Mr. Chairman. I guess the question 
for all three of you to answer starting with Dr. Hansen, 
probably a follow up to what Mr. Neal talked about, you have 
developed countries, you have developing countries in the world 
today, and China is one country that obviously is using more 
and more coal operating or opening new coal power plants every 
year, many.
    In my hometown of Columbus, Ohio, we did an analysis and 
said in less than ten years, emissions from developing 
countries will exceed the total amount of emissions from all 
currently developed countries.
    In such a scenario, you could argue that if the United 
States goes to zero, abandons your point, coal, we could still 
see a scenario where countries that we are competing with 
economically are creating more global warming.
    What is your response to that, Dr. Hansen?
    Mr. HANSEN. These developing countries have very strong 
incentives for wanting to reduce the emissions and the air 
pollution and water pollution that goes with it. China is very 
concerned about that. They are beginning investments in many 
ways aimed at clean energy.
    That is why a carbon price is so important. Once the major 
countries--our few major trading partners, Europe and China, 
agree to a carbon price, then because you can impose import 
duties on those countries that do not make products that do not 
have a carbon tax, you can in the most efficient way phase out 
the carbon emissions.
    The developing countries have as much or more incentive to 
do that as we do.
    Mr. TIBERI. Doctor?
    Ms. Ekwurzel. Thank you. I think because the U.S. actions 
alone will not be enough further underscores the need for the 
U.S. leadership in the international agreements.
    The U.S. accounts for around 20 percent of the worldwide 
emissions, and also the tropical deforestation accounts for 
another 20 percent.
    If you were to add up European Union and the United States, 
that is almost 55 percent of the world's emissions.
    We know that the world has already chosen a market based 
cap and invest system we currently limit our ability to compete 
within that market. I think it is very important that we engage 
in the carbon trading that is already going on and including in 
our own United States, because we have a northeast carbon 
trading cap and invest system as well.
    Mr. TIBERI. Dr. Christy?
    Mr. CHRISTY. This is where it becomes a moral issue. The 
third world will develop with affordable energy. Making energy 
more expensive for them will limit their ability to grow and 
develop.
    As I said before, without energy, life is brutal and short, 
and I saw it.
    Chairman RANGEL. The Chair recognizes Mr. Doggett.
    Mr. DOGGETT. Mr. Chairman, with your permission, can I 
follow Mr. Larson? He has a conflict.
    Chairman RANGEL. Mr. Larson.
    Mr. LARSON. Thank you, Mr. Chairman. I want to thank the 
witnesses as well. I especially want to say from the outset how 
we all share the fierce urgency of now with respect to 
addressing this issue.
    The Friends of Earth did a study that said a carbon or 
greenhouse gas auction would create the world's largest new 
derivatives market. In fact, the Commodities Future and Trading 
Commissioner, Art Children, called carbon futures the biggest 
of any derivatives' product.
    Many of my colleagues, including Mr. Etheridge and Mr. Van 
Hollen, have worked for years to introduce oversight into the 
commodities futures markets to little avail.
    There is still the over the counter dark unregulated 
markets, which in a recent 60 Minutes' investigation claimed 
was on the scale of 40 to $60 trillion.
    My question is what makes you think that an auction for 
carbon emissions where the market sets the price would not turn 
into the unregulated speculative mess that we have witnessed in 
other markets?
    Mr. HANSEN. I think that is one of the dangers. I think you 
are bound to get--it is really hard to avoid speculators from 
getting involved. That is why you want a simple, honest tax and 
dividend, I think.
    Dr. EKWURZEL. I would argue that with a well designed cap 
and trade, we can buffer the prices through banking and 
borrowing. Also, what is more important with the cap and invest 
system is that in that type of system, all actors who can 
contribute, such as farmers, forest managers, and tropical 
forest protection, can be part of the market cap and invest 
system.
    Mr. LARSON. I realize you said in your testimony that you 
are not an economist. I respect that. I am not trying to put 
you on the hook for that.
    I have a difficult time explaining to constituents at Augie 
& Ray's what an ``auction is,'' and it will actually take place 
and who benefits.
    I think a number of people on the Committee starting 
certainly with Mr. McDermott raised valid points in terms of 
volatility, and how will volatility impact the constituents we 
are all sworn to serve, and what will be the cost savings that 
is passed along as Mr. Hansen indicated. How will constituents 
benefit from this as opposed to the obvious benefactors on Wall 
Street.
    Dr. EKWURZEL. I would cite the Center for Budget and Policy 
Priorities. They have recommended that about 14 percent of the 
auction revenues would go directly into a low income credit, a 
credit card, for energy prices, to buffer them from that price 
volatility, as well as making sure that the revenues that are 
generated----
    Mr. LARSON. Fourteen percent of trillions of dollars, that 
is what would trickle down to the ultimate end user and the 
person that is going to have to bear the brunt of the price 
increases that will come?
    Ms. Ekwurzel. One advantage is that when you reinvest in 
creating more choices, especially in energy efficiency, the 
costs of energy are going to go down.
    Mr. LARSON. How will China and India in a not so 
transparent system, and as we look, as some of the questions of 
Mr. Levin and others have raised with respect to trade, be able 
to brought along in a system that is not transparent and 
accountable and direct?
    I think it masks itself in many respects as opposed to this 
straightforward leveling with the American people what the 
sacrifice will be, but also what the benefit of their 
participation will be in terms of either lowering their payroll 
taxes or getting a direct dividend as Mr. Hansen and others 
have suggested.
    Dr. EKWURZEL. I would say that my top priority is solving 
the climate crisis. Having a cap directly addresses that.
    Mr. LARSON. Are you open to something other than a cap? Are 
you open to not falling into the trap that we saw with the 
derivatives market and the less than transparent means of 
collecting this money and then passing it on to the people who 
will be truly impacted?
    Are you open to it, at least?
    Dr. EKWURZEL. I think there has to be a suite of policies 
and cap and invest is a part of it. We also need to have 
incentives. We need to have standards to make sure that our 
plasma TV's are not emitting and using as much energy as they 
currently do. When you replace a TV. with a plasma TV., we are 
taking many steps backward.
    These types of incentives and carrot and stick methods will 
have to be across all sectors, but with cap and invest, we can 
bring in the agricultural sector.
    Mr. LARSON. Thank you, Doctor. I agree with your scientific 
goals. I hope you are open to achieving some of the economic 
results downstream on our constituents who will be impacted.
    Mr. DOGGETT. Mr. Chairman?
    Chairman RANGEL. Mr. Boustany is recognized.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    None of the three of you are politicians or economists. You 
are scientists. For a moment, I want to just focus on the 
context of what has been said here in the hearing.
    Dr. Hansen, you said the science is crystal clear based on 
a lot of empirical findings with the diminishment in the Arctic 
ice and other findings that have been observed.
    Dr. Ekwurzel, you stated that models have actually under 
stated the actual pace of change.
    Dr. Christy has talked about models, planet models 
overstating average temperature.
    There is a lot of difference of opinion right here, just in 
the context of this hearing.
    Could each of you point out to me what you see as flaws in 
the current scientific modeling, and what needs to be improved, 
what steps need to be taken to bring these models up to speed 
to give us a better indication of what is going on empirically?
    Dr. Hansen.
    Mr. HANSEN. First of all, I did not mention models. I think 
by far, our best indication of how the Earth responds to 
changes in its boundary conditions and its atmospheric 
composition is based on the history of the earth. That is what 
has improved enormously in recent years, the paleoclimate 
information.
    Also, we see what is happening with the changes that are 
occurring now.
    Mr. BOUSTANY. Is not the causality or the assumption of 
causality between emissions and global warming based on models?
    Mr. HANSEN. No. Our knowledge of climate sensitivity to 
changes in atmospheric composition is far more precise based on 
the Earth's history, based on how the Earth has responded in 
the past. Then that automatically includes every physical 
mechanism that exists in the real world, while models are 
always deficient. You never know whether you have all the 
processes in there or whether you have the physics right.
    Indeed, by setting different scientists up at a table, you 
will always get differences of opinion. That is why I strongly 
recommend, if you want to have the best assessment or summary 
of our knowledge, that you ask the National Academy of 
Sciences. Then we can stop debating things which are already in 
fact quite clear.
    I do not mean to imply that every detail of the science is 
settled, but the broad picture--you need to look at the forest, 
not just the individual trees. The best body to help us look at 
the forest, I think, would be the National Academy of Sciences.
    Mr. BOUSTANY. Thank you. Dr. Ekwurzel?
    Dr. EKWURZEL. I think it was very clear we all agree that 
the climate is warming. We are a big part of the problem. That 
gives me hope. That means we can be part of the solution. 
Otherwise, we would be at the vagaries of natural processes, 
and the Earth's history has taught us a lot, how sensitive the 
climate is.
    Where the science is leading now is to try to figure out 
what are going to be the local impacts, how fast are the 
changes going to be, and how can we adapt.
    That is where the science is. The broad reason behind it 
and factors that we have understood for many years, indeed some 
of the concepts were proven over 200 years ago and still remain 
robust.
    Mr. BOUSTANY. I understand that. Does not the modeling give 
us some sort of an indication of how we should intervene?
    Dr. EKWURZEL. We have plenty of evidence just based on what 
has happened in the past and observations, especially very high 
quality scientific records, especially over the last century.
    Mr. BOUSTANY. Try to explain the fact that the models based 
on emissions do not account for the rapid pace of warming, what 
are the other factors?
    Mr. HANSEN. What has become clear is there are amplifying 
feedbacks in the climate system. One of them is in the Arctic 
where as the sea ice melts, it exposes a darker ocean that then 
absorbs more sunlight and it speeds the melting of ice there.
    Even slow feedback, things that we thought were slow, like 
ice sheet disintegration and like melting tundra and release of 
methane, we did not include that in the models, but in fact we 
are seeing it begin to happen, still modest in its size.
    When we look at the Earth's history, we see that when those 
things got started in the past, they sometimes then began to 
grow quite rapidly. Ice sheets disintegrated at a rate that had 
sea level going up one meter every 20 years.
    Those kind of processes are not really included in the 
models. In that sense, the models are less dynamic than the 
real world.
    Mr. BOUSTANY. Thank you.
    Chairman RANGEL. The Chair recognizes Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. Thank you for 
conducting this hearing and involving this Committee in finding 
a solution to this critical issue.
    It is timely particularly because as you recall, last night 
in his address, President Obama asked ``Congress to send him 
legislation that places a market based cap on carbon pollution 
and drives the production of more renewable energy in 
America.''
    I think it is not too much to say that this President is 
committed to changing the White House into a greenhouse, not 
just an efficient house as a model for the country, but a 
greenhouse in the sense of cultivating, of creating, of 
applying science based approaches to how we solve the critical 
national security issue of climate change.
    I think our President gets it. We need to help him get the 
progress that we seek by moving forward in the very near 
future, in the next few months, in offering legislation to 
address this issue.
    The time to act was really long ago and it is with the 
economic crisis that only swift bold action can help us be 
pulled back from the abyss that you have described this 
morning.
    Fortunately, the world climate, while it is worsening, the 
climate here on the Hill for change is greatly improving. Last 
Congress, I introduced the Climate Matters Act cosponsored by a 
majority of the Democratic Members of this Committee, almost 
100 cosponsors, that set limits on greenhouse gas pollutants.
    Now, with Chairman Henry Waxman at the helm of the Energy 
and Commerce Committee, I believe our two Committees can work 
together as partners to lead a Congressional response in 
reaction to President Obama's leadership.
    While disagreeing with your conclusions on the best remedy, 
I particularly applaud the years of commitment of Dr. Hansen, 
and I share, Dr. Hansen, your zeal for action and the need to 
have acted yesterday.
    Most Americans, I think, understand that it is not whether 
we respond to the crisis of climate change, but how quickly we 
respond to it.
    I am very pleased that Dr. Ekwurzel is here. The Union of 
Concerned Scientists was one of a large number of groups that 
appeared in this room last Summer when we had hotter weather 
and when we also had a broad consensus in favor of climate 
legislation, and I appreciate the role the Union has played in 
exploring this and certainly in the supportive comments it has 
offered on the climate change bill.
    Any time you have a problem that is this massive but where 
the benefits of solving it are felt years down the road and the 
difficulty and pain of coming up with a solution is felt now, 
there will be many excuses for inaction that are very appealing 
from a political standpoint.
    The economic crisis is the latest excuse for doing nothing. 
In fact, I believe, as your testimony indicates, that the 
crisis that we have now is directly linked to our over 
dependence on fossil fuels and fossilized thinking, and that we 
need to be creating green jobs now to get us out of that 
crisis.
    Another excuse that we have heard this morning is that what 
we need to do is let India and China dictate our policy in this 
country. You know, it is not so many years ago that Exxon 
Mobil, one of the current advocates for a carbon tax, was over 
telling the Chinese and the Indians that they needed to not be 
concerned about this problem and not participate in helping us 
to find the solution.
    I believe that you have outlined the fact that we need all 
of these countries cooperating, of course, to solve the climate 
change. It is a false discussion to say let us just look at 
what the United States could do to contribute. We can do a 
great deal.
    My state of Texas, the biggest emitter of greenhouse gas 
emissions in the country that is either number one or number 
two with the Chinese in greenhouse emissions, can do a great 
deal to solve this problem.
    We have to do it through cooperation and also through the 
kind of trade mechanisms that we outlined in the Climate 
Matters bill. Secretary of State Clinton has been there placing 
this at the top of the foreign policy agenda.
    One of the things, Dr. Ekwurzel, that you referred to that 
I think is so central to the Climate Matters Bill, is we have 
to have a rapid response in terms of scientific review, 
periodic review.
    As we get into this, we learn even more and more and we may 
see an even more rapid deterioration and the fact that the 
worse case scenario we have heard about is maybe not as far 
reaching as the facts dictate.
    Let me ask you, Dr. Ekwurzel, as far as the cap and invest 
approach, if you believe that an investment of some of these 
revenues that would be gained is critical to helping us resolve 
the problem and provide additional resources for energy 
efficiency, clean transportation and green energy technology?
    Dr. EKWURZEL. Yes, I think it is absolutely critical as 
well as buffering low income constituents that are so critical 
in this path forward. We need that one-two punch of the early 
cap and also ratcheting down in the second punch of 
reinvestment so we can have the longer term solutions when the 
cap is so low and the price goes up.
    We need those better technologies down the road over the 
next 40 years. Thank you.
    Mr. DOGGETT. Thank you very much.
    Chairman RANGEL. The gentleman from North Carolina, Mr. 
Etheridge.
    Mr. ETHERIDGE. Thank you, Mr. Chairman. Let me thank each 
of you and thanks for this hearing, Mr. Chairman.
    Dr. Hansen, some have criticized carbon tax proposals 
because they say they do not provide certain reductions in 
emissions. How would you address this criticism?
    Mr. HANSEN. I think in fact, carbon tax is your root to the 
fastest reductions. What the science has told us is that we 
need to make reductions as fast as we can.
    The cap, the problem is attempts to define caps then result 
in escape hatches, and we see in the Kyoto protocol that in 
fact, we did not get reductions, even the countries that 
accepted the targets of large reductions did not achieve them. 
Instead, they would use some escape hatch and plant a tree in 
some country or something.
    The most effective way is to put a price on the emissions 
and that will give a big incentive to develop those 
technologies that do not emit carbon and move us in that 
direction as fast as possible. We can adjust that rate by 
changing or increasing the tax rate.
    If we are giving back 100 percent of the money to the 
public, the public will not object to a higher rate.
    Mr. ETHERIDGE. I met with a group this morning, and 
obviously, different groups have different issues as it relates 
to whether it is capping trade or tax, and certainly, the 
agricultural industry in this country, depending on whether it 
be people who grow animals or whatever, there is a different 
degree of where you are, and you will have a certain group that 
will love capping trade because they are going to make money at 
it, because they can have offsets from industry.
    Otherwise, one issue was raised this morning. Dr. Ekwurzel, 
I would be interested in your comment. The issue they raised 
was not so much getting there, they were willing to do certain 
things, but fertilizer and a lot of the components in 
agriculture is really tied to natural gas, has a significant 
impact on the input costs and the fluctuations that take place.
    If within the process of what we are doing we have adequate 
natural gas in place, then you have a level playingfield over 
the long run, but if not, and this gets to other areas, you are 
going to have tremendous peaks in the cost of food, et cetera.
    Would you feel comfortable in commenting on that? I have a 
follow up question I really want to get to.
    Dr. EKWURZEL. I think the price volatility would be 
something that a well designed cap and invest program would 
have to address. Your point to other actors, for example, a 
farmer, a dairy farmer, who can get power from the methane 
emissions or the nitrous oxide that comes from the farming 
practices that can last in the atmosphere for about a century, 
these types of issues can be well addressed with a well 
designed cap and invest program.
    We could bring more actors that can help solve the problem 
of climate change, which is what I am most interested in.
    I cannot speak to your natural gas issue.
    Mr. ETHERIDGE. I will save that for a later day.
    Your proposal focuses on preventing a greater than two 
degree change in temperature. My question is what are the risks 
associated with allowing a two degree change in temperature, 
and secondly, what is the level--why is that acceptable when 
three degrees would not be or one degree?
    What is that break point? I have heard the consequences but 
I would like to get it on the record.
    Dr. EKWURZEL. I would just caution that with the 
understanding of the science, for example, some projections of 
disintegration of some of the ice sheet, contributions to sea 
level rise, some of those range from between 1.5 degrees 
Celsius above pre-industrial up to higher, so perhaps two 
degrees Celsius above pre-industrial might not save the worse 
case of the scenario's of some of the models for ice sheets, 
but many of the impacts--what we are saying is that two degrees 
is an absolute maximum.
    The atmospheric concentrations that go along with a good 
temperature, it may be more prudent to go even lower. Some 
issues for example, you can lose are species that are sitting 
at the top of mountain tops or at the polar regions that do not 
have other places to escape, as well as our own coastal 
infrastructure.
    We developed our economy, our agricultural system over the 
past 2,000 years with a relatively benign situation. We knew 
the sea levels, where they were, and that type of rapid change 
is something that would be an immense cost to us as well as 
threats to many people around the world for food supply, water 
resources, flooding and destruction, and more extreme weather 
events.
    These are some of the impacts we would like to avoid.
    Mr. ETHERIDGE. Thank you, Mr. Chairman. I yield back.
    Chairman RANGEL. Mr. Pomeroy.
    Mr. POMEROY. I thank the Chairman. Thank you for this 
important hearing, Mr. Chairman. I commend the panel. I think 
each of you have been extremely interesting and quite clear in 
discussing a complex scientific matter.
    I represent the State of North Dakota. We farm up there. We 
have a substantial coal industry, lignite coal. We use it to 
generate power, another major source of economic activity. We 
heat our homes through long cold winters. We drive long 
distances between our towns.
    We are anxious about this. On the other hand, we care more 
than anything about the world we will pass on to our children 
and our grandchildren.
    We are trying to find our way here. A course that I think 
Congress needs to pursue is we have to keep a mind on ultimate 
political sustainability of changing course and beginning to 
address this issue.
    What would be the impact of what you think might be an 
optimal answer in a place like North Dakota?
    Mr. HANSEN. I think North Dakota, as the price on carbon 
emissions goes up, the coal industry is going to go down. North 
Dakota has an abundance of wind resources. It also could be a 
contributor to well designed biofuels programs, not corn based 
ethanol, but there is a role for biofuels in our future energy 
supplies.
    I think that it is not going to be necessarily detrimental 
to even a state like North Dakota.
    Mr. POMEROY. Dr. Hansen, coal is the most abundant, most 
affordable energy source in the world. I flew out 
coincidentally Monday from Bismarck with an engineer working 
for North American Coal heading to India, where he is going to 
spend the next 3 months assisting them in the construction of a 
power plant. They are building a pile of them. He's on the 
mining side. He did not think there was a heck of a lot of 
investment going in on the environmental side of that plant, 
which will be four times larger than any plant in North Dakota.
    Talk about extraordinary air deprivation, deterioration 
already, per capita energy consumption at about one-sixth of 
what we have in this country there, full speed ahead in terms 
of expanding power.
    What about coal? If our Nation decides--are we truly going 
to shift the cost to the consumer, going without this energy 
resource, and even if we would, what about the rest of the 
world which is unlikely to follow this example?
    Mr. HANSEN. Yes. It is not a trivial problem. The science 
has really made clear we cannot burn all of that coal without 
sending us back to where the planet was when that carbon 
dioxide was in the atmosphere before. Where it was, there was 
no ice on the planet. Seventy meter sea level rise.
    It would not happen instantly. We would set in motion 
processes that would be affecting our children and 
grandchildren for many generations.
    We simply cannot do it. We have to figure out a way. Coal 
could be part of it if you really developed a carbon capture 
and sequestration.
    My guess is--I do recommend there should be real effort to 
do that. Not the imaginary one we had over the last seven or 8 
years where we pretended we were doing it and then did not do 
it.
    That is a possibility. I would compare that to fourth 
generation nuclear power. I would work on both of those and 
figure out which one is more effective. Maybe both. My 
suspicion is we do need baseload electrical power and I doubt 
that the renewables will do that.
    Mr. POMEROY. Not to interrupt, I see my time is running. We 
have a very substantial coal sequestration initiative in North 
Dakota that enhances all recovery in Canada. It does not 
capture 50 percent of emissions, but it was not even 
constructed for that purpose. I think we can do much better.
    Would you say as part of the approach a substantial 
investment in clean coal to see what we can achieve needs to be 
part of a sustainable political answer?
    Mr. HANSEN. I think that is a role that a government should 
be expected to play. The carbon price will then encourage 
private investment if it looks like that is a viable way.
    I think on a really big issue like that, which is a decade 
long type thing, that the government should contribute to that 
and also to nuclear power.
    Mr. POMEROY. Thank you. I did not have time to include the 
other panelists, but thank you.
    Chairman RANGEL. The Chair would like to recognize Mr. 
Davis of Alabama.
    Mr. DAVIS of Alabama. Thank you, Mr. Chairman.
    Let me tell you, lady and gentlemen, at the outset, I think 
I am in the camp that Mr. Pomeroy represents, my very learned 
colleague from North Dakota.
    We are searching for--the phrase ``middle ground'' is 
tried, it is over used. For lack of a better term, both of us, 
and I think Mr. Etheridge, are searching for some sort of a 
path in the middle.
    I want to use my time to tell you, Dr. Hansen, what I find 
unsatisfying about your testimony, and then Dr. Christy, I will 
tell you frankly what I find unsatisfying about your testimony.
    Beginning with Dr. Hansen, when Mr. Pomeroy asked you 
questions about what the impact would be if we were to have a 
dramatic departure from coal based sources of energy, your 
answer essentially was well, we would certainly lose coal based 
sources of energy under your scenario, but there are numerous 
other ways that North Dakota could pick up the slack.
    This is my concern with that answer. It is not a 
theoretical abstract issue. If coal based sources of energy 
were to deteriorate in major portions of this country, you 
would lose whole mining communities, you would lose whole job 
sources for people, and the average age of people in the mining 
industry is not young. These are individuals often, I think, in 
their late 40s/early fifties.
    It is not uncommon for people to be at that age and working 
very productively in the mining industry. They are not going to 
be retrained in this phase of their career to do something. 
There will not be a seamless transition at all.
    Mr. Etheridge, I think, may have voiced some concerns about 
some of the impact of some of the renewable electricity 
standards on southern states.
    That is a genuine concern that some of us have, that you 
could see acute impacts on particular regions, on particular 
sectors of the economy, those impacts will be magnified by the 
effects of globalization in many ways, and they are also 
magnified by the now 26 year deterioration in the manufacturing 
sector in this economy, and again, the costs are not academic. 
They are real families that are not likely to be retrofitted 
for different kinds of work.
    Having said all of that, Dr. Christy, I had a chance to 
review your written testimony. I am going to tell you what I 
find unsatisfactory about your approach.
    Number one, I am not a scientist and will not play one on 
close circuit TV. here today, but I am not overly sympathetic 
of the science and the scientific argument you have advanced, 
but I do not want to dwell on that.
    Frankly, I was more bothered by another observation you 
made in your written testimony. You say that you are 
paraphrasing, but there is a quote from you based on a 
conversation you had with a manufacturer, ``Alabama is our last 
stop in the United States. If energy costs rise, we will be 
taking all these jobs to Mexico or China and building our 
products, leaving more emissions and less efficient plants than 
we create here.''
    That is some version of an argument that I hear a lot as a 
Member of Congress from Alabama. This is how a typical week 
often goes. On Monday, I will hear someone in the business 
community say unions are bad for my state and we have been 
selling Alabama on the grounds that we do not have a lot of 
unions, so if we bring in unions, we will lose that competitive 
edge.
    On Tuesday, someone will say in the context of the stimulus 
package that just passed, this will make us expand our 
unemployment insurance, and we have been selling Alabama on the 
grounds that we do not require very much in the way of 
unemployment insurance, that is a competitive edge that we have 
had.
    On Wednesday, particularly until last August, someone would 
come to me and say yes, it is true, we are 49th in the country 
in our water protection standards when it comes to the amount 
of carcinogens we tolerate in the water supply, but we use that 
to get a competitive edge over other states.
    Now I hear from you well, the particular energy profile 
that we have in our state is a competitive advantage that we 
have on other states.
    I am waiting for, I guess, the Friday when somebody comes 
in and says maybe the competitive edge that we ought to be 
developing in Alabama and states like it is that we are 
producing very good workers, developing very high quality 
schools, and developing very good comprehensive workforce 
development programs.
    I just want to hear that as the solution advanced by people 
one of these days. I have a hunch that if we are serious about 
where your state and my state is going to be 10 years from now, 
15 years from now, it is going to require that we frankly, yes, 
invest in nuclear. Yes, we invest in alternative sources of 
energy.
    It is also going to require a focus on education, on job 
creation. I just do not like hearing this argument that 
Alabama's competitive advantage is that we protect our workers 
less and we protect our environment less and demand less of 
industry and the people around us.
    I imagine the states that surround us want jobs as much as 
we do. I imagine they want a strong economy as much as we do, 
but they seem to be choosing different courses than the ones 
that some policy makers in Alabama are encouraging.
    My time has run out. If any of you want to respond to what 
I said and the Chairman will allow it, that is fine.
    Mr. HANSEN. You are certainly right. If we phase out coal, 
the coal mining jobs are gone. The studies have shown that the 
jobs created by the alternative energies actually are more 
labor intensive and will produce more jobs than the coal 
mining.
    Of course, the coal miner--the United States has always 
moved fairly quickly from one thing to another, and that does 
create a hardship if a person is not retrainable.
    You will need to take some steps to try to minimize that 
impact. I think overall for the country, it will not be a 
reduction in number of jobs.
    Chairman RANGEL. Mr. Van Hollen is recognized.
    Mr. VAN HOLLEN. Thank you, Mr. Chairman. Let me thank all 
of our witnesses for their testimony.
    Dr. Hansen, if I could start with you. Dr. Ekwurzel has 
argued for an initial target of 25-percent reductions off the 
1990 levels by the year 2020. Consistent with both meeting the 
science and the evidence with respect to global warming and 
also not doing undue harm to the economy, does that path make 
sense to you? Is that something you think is an appropriate 
target?
    Mr. HANSEN. That would be reasonably consistent with 
phasing out coal as rapidly as practical. In order to actually 
achieve that, when we set goals before, it has not been a very 
effective approach. We have to identify where the main source 
is and the one that we are going to have to cut back, and that 
is coal, and we will need, I think, in order to achieve that, 
to have a price that encourages it to happen.
    Mr. VAN HOLLEN. You anticipated my next question, which is 
really for both of you. Let us assume that is the path we want 
to reductions on that schedule. What would be the effective 
price for carbon in order to hit that goal and any schedule in 
terms of price increases?
    I understand you mentioned the number of $115 per metric 
ton of carbon. Is that the kind of price we are talking about 
and at what point in this schedule. These are obviously the 
real considerations for the Committee.
    Mr. HANSEN. It is difficult to set that. That is why I like 
the carbon price as the tuning knob because it is a stable one 
with a linear, while in the case of caps, there is too much 
volatility.
    The price has to be high enough that the consumer feels the 
impact and it affects their choices in vehicles they buy and it 
encourages them to weatherize their home and things like that. 
It has to be a substantial price. That is where the discussions 
on the cap have really been, I think, inadequate, to really get 
the major changes that we are going to need.
    I am saying I cannot tell you exactly. By the way, the $115 
is per ton of CO<INF>2</INF>, not carbon.
    Mr. VAN HOLLEN. CO<INF>2</INF>. I am sorry. Doctor, do you 
have a sense of what the price would have to be if you do a cap 
or a tax?
    Dr. EKWURZEL. Certainly, as the cap ratchets down, 
theoretically the price is going to go up. We have limited 
allowances. I would not be able to say what the price would end 
up being.
    Mr. VAN HOLLEN. For you, Dr. Ekwurzel, Dr. Hansen has 
proposed that in order to address the price impact on the 
consumer, you essentially have a rebate, a 100 percent rebate. 
As we all know, one of the impacts of this will be to increase 
the price of carbon products.
    I know you have said we should use some of the revenue for 
some of these purposes in clean technologies.
    I guess the question on the minds of many consumers is not 
Dr. Hansen's approach a more direct approach to ameliorating 
that cost impact on a consumer, and does it not also allow them 
to draw a more direct connection between increase in prices but 
also the relief that they will feel in terms of the additional 
costs through a rebate?
    Dr. EKWURZEL. In some senses, it could be seen as 
regressive in that one rebate across the board per capita is 
for everyone, whereas if you directly target the investments 
toward those who have low income, you might be able to give 
even more money than what the rebate is.
    There is also no guarantee that what they are buying is 
necessarily reaching our goal. That is from my perspective of 
wanting to reduce the cap on emissions. I am not so sure you 
get there with the dividend.
    What is important is you really need to provide more 
choices for the American consumer so that when they do spend 
their money or if they have energy credits, depending on if it 
is a well designed program, then we want to have more choices 
that are very energy efficient and allow them to weatherize 
their homes and get windows and have wonderful new options when 
they buy appliances and have new standards on plasma TV.'s that 
are really climate friendly products that are out there, so 
that requires a suite of programs.
    I do not know how a dividend would necessarily provide 
similar guarantees. If you send the money over to other 
countries that are producing consumer products, I am not sure 
how that incentivizes climate friendly products.
    Mr. VAN HOLLEN. Mr. Chairman, a brief follow up on that. I 
think we should all agree the primary mechanism we are using 
here to try and drive investments in alternative energy 
sources, non-carbon based sources, is by setting the price on 
carbon, and that will drive investments in these other 
technologies because consumers will want to buy them.
    I could not agree with you more on weatherization as a good 
investment. As you know, we have a major investment in the 
economic recovery plan.
    Just in terms of consumers understanding that we are going 
to offset some of the increased costs they are going to incur 
through a rebate, I think there is probably a good argument to 
be made, that that is a more visible and direct impact.
    Thank you, Mr. Chairman.
    Chairman RANGEL. Thank you. Mr. Kind?
    Mr. KIND. Thank you, Mr. Chairman. I just want to thank the 
guests for your patience. You have given us a lot of time 
today. I apologize if you have already addressed the issue I 
want to delve into briefly with you. I have had to run in and 
out.
    Dr. Ekwurzel, let me start with you because I was looking 
over your PowerPoint first thing when I came in, and noticed 
that in the share of the emissions' pie, you have it broken 
down between industrial and developing nations, where the 
industrial, as far as projected nations' emissions, comprises 
about 40 percent impact on the globe, and developing nations, 
roughly 60 percent.
    My question for you and anyone else on the panel here today 
is how do we create a system to incentivize the full 
participation of the developing world in what we are doing?
    Even if we try to make the right decisions and get 
everything right here at home, if we do not get that buy in 
from the rest of the world, especially China and India, we may 
be just tilting at windmills here.
    I do not know if you have an opportunity to think about 
what we can do in working in concert with the developing world 
and some of the faster emerging nations that are emitting a 
lot. In fact, China just surpassed us recently as the number 
one emitter in the globe.
    Dr. EKWURZEL. Those were 2005 numbers. It was just an 
illustration really to show how deep our emissions would be, 
even if we based it on our current emissions, which are quite 
high. In fact, China and India--China has surpassed us. We are 
number two. India is coming fast along, and Russia.
    What I see is that in fact if we were to create cheaper 
forms of energy from many different sources all on the table 
and we developed the products here and engaged in that, instead 
of Germany selling the products to the rest of the world, I 
would like us to be selling energy efficient products to the 
rest of the world.
    If we can generate revenues and invest it in our companies 
here at home to create the new energy infrastructure and the 
jobs of the future, we can have instead of a person going over 
there building a new coal plant, we could have a person over 
building a plant that perhaps is much more climate friendly, 
and that would be really beneficial to our economy as well as 
the climate. I like both happening at the same time.
    Mr. KIND. It is certainly what the President was alluding 
to in his speech last night, how we need to ramp up our 
investment in clean technology, clean energy sources. Of 
course, what we were trying to accomplish in the recovery 
package as Mr. Van Hollen just pointed out as well, how do we 
ramp this up capacity wise in this country so we can lead the 
world and share with the rest of the world.
    Mr. Hansen, do you have any thoughts?
    Mr. HANSEN. With regard to China and India and the 
likelihood that they would cooperate, it should be pointed out 
they will suffer more from climate change than we will. They 
have a few hundred million people living near sea level. They 
are already suffering from coal pollution, a few hundred 
thousand people per year are dying of air pollution.
    They will have strong incentives to go in the same 
direction as we do. I have had workshops with Chinese and 
Indian scientists. I find they are eager to move in these 
directions. We just have to have the incentives there to make 
sure it happens.
    That is why I think the price incentive with the tax and 
100 percent dividend gives that kind of push.
    Mr. KIND. Dr. Hansen, do you feel with your contacts with 
the scientists in India and China that they are basically where 
established science is today or do they have a raging debate in 
their own society?
    Mr. HANSEN. No, this raging debate is not unique to the 
U.S. It is certainly occurring in other countries, in Europe 
now also. Not to the degree that it is here.
    That is why I really think that we should ask the National 
Academy of Sciences. I know what you see on television is not 
representative of where the science really stands.
    Mr. KIND. Mr. Christy?
    Mr. CHRISTY. Yes. I object to that comment. I am one of 
those few people that actually builds these climate datasets. 
If we could show number three up there, I just want to show one 
thing to dispel some of the things you have heard here today.
    The climate is not changing or more sensitive than what 
models say it is. This is the range of climate model trends in 
temperature for the planet.
    The red is the highest range. The orange is the low range. 
The blue and the green lines are where the real world is. In 
other words, the real world is responding in the climate system 
at the very lowest of the sensitivity, the mean sensitivity is 
not being achieved by the real world.
    These are numbers that we build and we know they can be 
repeated. That is the point I am trying to make. We are not 
changing at the rates that are being promoted primarily by the 
media, I think.
    Mr. KIND. Right. I want to thank you all again. You were 
very generous with your time and testimony. Thank you, Mr. 
Chairman.
    Chairman RANGEL. Thank you. Let me thank the three of you 
on behalf of the Committee and share with you the thinking of 
the Chair and the Committee.
    As you know, the President has accelerated our hearings in 
getting something done, the leadership of the House and Senate 
have indicated a priority, and we intend to meet with the other 
Members of the Committees of jurisdiction to see how we can 
consolidate our thinking and get a consensus on the direction.
    I do hope that you would continue to be generous with your 
time, advice and direction, and we will try to make certain 
that we can avoid all of the Committees calling you down to say 
the same things. I will try to consolidate your time if you 
would be kind enough to continue to give us the benefit of your 
research and advice.
    You have been very, very helpful. I suspect that we have 
the capabilities as we certainly have the willingness to do 
this and perhaps that would be your rewards for a lifetime of 
research that your country has finally responded.
    Thank you very, very much.
    [Whereupon, at 12:42 p.m., the hearing was adjourned.]
    [Submissions for the Record follow:]
   Statement by Laurie Williams and Allen Zabel of www.carbonfees.org
    The single biggest obstacle to solving the climate crisis is the 
fact that the cost of fossil fuel energy remains relatively low, 
creating little incentive for conservation or for the scale-up of clean 
energy. While prices for clean energy have fallen, clean energy remains 
significantly more expensive than fossil fuel energy. For instance, 
fossil fuel-generated electricity currently averages between 6 and 10 
cents per kilowatt hour, while, depending on its design and location, 
solar currently averages 2 to 3 times that amount. As we explain here, 
a cap-and-trade approach (the Acid Rain template), widely presumed to 
be an appropriate tool for addressing climate change, has several fatal 
flaws, including the fact that it will not insure a competitive price 
advantage for clean energy over fossil fuel energy in the near future. 
As a result, cap-and-trade will not create the incentives for 
investment in a rapid scale-up of clean energy substitutes. Cap-and-
trade keeps our eyes focused on the wrong ball--on maintaining low 
costs for fossil fuel energy. Instead, our eyes need to be focused on a 
very different ball (the CFC-tax template)--on changing the relative 
cost of fossil fuel energy and clean energy, while keeping the energy 
needed for everyday life and in everyday products affordable for 
everyone and minimizing economic disruption. Carbon fees with a 100% 
rebate, delivered monthly in equal payments to all, is the tool that 
can swiftly and effectively accomplish this goal.
---------------------------------------------------------------------------
    \1\ We have written this paper as concerned citizens and parents. 
Our educational background includes undergraduate degrees from Yale 
College (Laurie) and the University of California, Santa Cruz (Allan) 
and J.D.'s from Boalt Hall School of Law at the University of 
California, Berkeley. We are employees of the United States 
Environmental Protection Agency (``EPA''), Region 9, in San Francisco, 
however, we are writing only in our personal capacities, and nothing in 
this paper is an attempt to present the views of EPA or the 
Administration.
---------------------------------------------------------------------------
Illustration 1: Fossil fuel energy provided approximately 86% of U.S. 
        energy in 2006.
The Role of Fossil Fuels and Renewable Energy in the Nation's Energy 
        Supply, 2006
(See http://www.eia.doe.gov/cneaf/solar.renewables/page/prelim_trends/
rea_prereport
.html)
1. What is Cap-and-Trade and How Did It Become the Leading Proposal to 
        Address Climate Change?
    Cap-and-trade is a program that sets a collective declining 
emissions limit (``cap'') for particular pollutants from all sources 
within the program. The idea is to gradually lower the total amount of 
pollutants emitted from these sources until the environmental goal is 
achieved (in this case massive reductions in greenhouse gas emissions). 
The trade portion of the program allows participating sources to lower 
the cost of reducing their emissions by purchasing permits to pollute 
from others who may be able to cut back more cheaply, thereby helping 
to keep the overall costs of the commodities manufactured, in this case 
fossil fuel energy, as low as possible.
    Outside Offsets: An additional concept that has been part of most 
cap-and-trade proposals for climate change is the idea of outside 
offsets. Outside offsets mean allowing additional pollution above the 
cap for sources within the program, if they are able to pay for 
decreases in the pollutant outside the program. For instance, a coal-
fired power plant (a source within the program) could continue emitting 
CO<INF>2</INF> above the levels that would otherwise be permitted, if 
the owners of the facility have purchased an offset, such as a 
reforestation project expected to capture CO<INF>2</INF>, i.e., a 
carbon ``sink,'' outside the capped sources. In most cases, cap-and-
trade proposals for climate change suggest allowing ``offset'' projects 
in other countries.
    Support for Cap-and-Trade: Many prominent people and organizations 
have supported cap-and-trade as a next step for addressing climate 
change. President Obama has said that his administration will seek 
enactment of a cap-and-trade program to reduce greenhouse gases to 80% 
of their 1990 levels by 2050. Although individual state programs may be 
preempted by a future federal program, the trend toward cap-and-trade 
is also shown by the California Air Resources Board's 2008 decision to 
rely heavily on cap-and-trade for reducing California's greenhouse gas 
emissions. The Western Climate Initiative, a group of western U.S. 
states and Canadian provinces, anticipates collaboration among its 
members on a cap-and-trade program. Robert F. Kennedy Jr., of the 
Natural Resources Defense Council (``NRDC'') has said that adopting 
cap-and-trade to address climate change is a ``no brainer'' in his 
forward to ``The Green Collar Economy'' by Van Jones. In addition, 
using cap-and-trade for climate change is endorsed by an array of U.S. 
organizations, including oil companies (BP America, ConocoPhillips and 
Shell) and environmental groups (Environmental Defense, NRDC and World 
Wildlife Fund), many of whom joined an industry/environmental coalition 
called ``USCAP,'' the stated purpose of which is to bring about 
enactment of a greenhouse gas cap-and-trade program. See USCAP's 
proposed program at www.us-cap.org.
    Given the high profile of the cap-and-trade idea, it is somewhat 
shocking to many to find that the analysis supporting this approach is 
seriously flawed and is rejected by many prominent economists.\2\ A 
combination of factors led to this disconnect:
---------------------------------------------------------------------------
    \2\ See Harvard economist, Greg Mankiw's blog at http://
www.nytimes.com/2007/09/16/business/16view.html.

    (1)  The Acid Rain Myth: Cap-and-trade advocates have claimed that 
the success of EPA's Acid Rain program has proved that cap-and-trade 
will work for climate change, failing to appreciate the critical 
differences between the climate change challenge and the acid rain 
problem. As discussed below, the U.S. chlorofluorocarbon (``CFC'') tax 
to address ozone depletion under the Montreal Protocol provides a much 
more applicable analogy.
    (2)  No New Taxes: Many analysts, including Peter Orszag, Director 
of the U.S. Congressional Budget Office (``CBO''), have recognized that 
carbon taxes (or fees) would be a more efficient method of reducing 
greenhouse gas emissions. See Orszag, Nov. 2007, http://www.cbo.gov/
ftpdocs/87xx/doc8769/11-01-CO2Emissions.pdf. However, many politicians 
have viewed any new taxes as politically unacceptable to voters, even 
before the economic collapse of 2008. These evaluations fail to 
consider the possibility of 100% rebate, the economic advantages of 
fees with rebates over cap-and-trade for most individuals, and the 
potential of public education on the policy choice to address this 
concern; and
    (3)  Urgency: Favorable analyses of the applicability of cap-and-
trade to climate change originated when scientists believed we might 
have several more decades to achieve an 80% reduction in 
CO<INF>2</INF>. However, recent studies indicate that the current level 
of greenhouse gases in the atmosphere (385 parts per million (``ppm'') 
CO<INF>2</INF>) will lead to dangerous climate change, even if no 
additional increases occur. Since CO<INF>2</INF> levels have been 
increasing at approximately 2 ppm per year over the last eight years, 
many scientists have concluded that the climate problem is much more 
urgent than they believed it to be earlier in this decade. This 
evidence suggests we have a much shorter time to a transition away from 
fossil fuels, especially coal, in order to reduce the risk of runaway 
climate change and ecological disaster. See the 2008 discussion of 
climate evidence by James Hansen, et al at http://www.columbia.edu/
jeh1/2008/TargetCO2_20080407.pdf. Specifically, Dr. Hansen and his 
team found: ``Continued growth of greenhouse gas emissions, for just 
another decade, practically eliminates the possibility of near-term 
return of atmospheric composition beneath the tipping level for 
catastrophic effects.'' (Emphasis added.) Given growing demand for 
energy world-wide, only strong incentives for conservation and a rapid 
scale-up of clean energy can stem the continued growth of emissions 
that Hansen and his team have determined are likely to spell disaster.

    While people we admire, people of good faith, great intelligence 
and real integrity, have supported cap-and-trade, our hope is to 
explain why moving forward with a cap-and-trade approach creates an 
unacceptable risk of catastrophic global warming and why there is a 
much more effective alternative that could become politically feasible 
with appropriate public education and leadership from President Obama.
2. Why is Cap and Trade the Wrong Tool?
    The Acid Rain Myth: As noted above, those who champion using cap-
and-trade to address climate change claim that it has been ``proven'' 
to work in the U.S. Acid Rain program. See e.g., Bill Chameides of 
Environmental Defense at http://gristmill.grist.org/story/2007/2/12/
102851/837. However, this assertion ignores crucial distinctions 
between the challenges we faced in 1990 with Acid Rain and the 
challenges we face today with global warming. Most importantly, the 
success of the Acid Rain program did not depend on replacing the vast 
majority of our existing energy infrastructure with new infrastructure 
in a relatively short time. Nor did it depend on spurring major 
innovation. Rather, the Acid Rain program was successful as a mechanism 
to guide existing facilities to undertake a fuel switch to a readily 
available substitute, the low sulfur coal in Wyoming's Powder River 
Basin. Existing fa-

cilities needed only the addition of a few new railway lines, burner 
modifications to accommodate lower sulfur fuel, and, in some cases, new 
or more efficient scrubbers. Little new technology or infrastructure 
was needed and little was created.\3\ The goal of the Acid Rain program 
was to reduce sulfur dioxide emissions, while keeping the cost of 
energy from coal low. To be effective, climate change legislation must 
do the opposite; it must gradually increase the relative price of 
energy from coal and other fossil fuels to create the appropriate 
incentives for both conservation and the scale-up of clean energy.\4\
---------------------------------------------------------------------------
    \3\ See http://www.bookrags.com/highbeam/dispelling-the-myths-of-
the-acid-rain-hb/.
    \4\ While the coal industry has lobbied for support for ``clean 
coal,'' sequestration of greenhouse gas emissions from burning coal has 
not been demonstrated to be safe or permanent and is expected to be 
costly.
---------------------------------------------------------------------------
    Further, the Acid Rain program did not allow any outside offsets 
and so provides no basis for the widespread assumption that an offset 
program will help with climate change. In addition, the success of the 
program was aided by the low, competitive price of low-sulfur coal. 
According to Professor Don Munton, author of ``Dispelling the Myths of 
the Acid Rain Story'' the impact of the program has been overstated:
    The potential for a massive switch to low sulfur coal was no 
secret. Such coal was cheap and available, and it became cheaper and 
more available throughout the 1980s. Indeed, low-sulfur coal became 
very competitive with high-sulfur supplied well before the Clean Air 
Act became law.
    See http://www.bookrags.com/highbeam/dispelling-the-myths-of-the-
acid-rain-hb/.
    Accurate Measurement: In addition to cap-and-trade's focus on 
keeping the cost of fossil fuel energy low, the program is vulnerable 
to inaccurate measurements. Unless all cap-and-trade elements, 
including outside offsets, are limited to systems with accurate 
emissions measurement, the cap on total emissions is likely be inflated 
and claimed reductions exaggerated. While the emissions of large 
electrical generating facilities with continuous emission monitoring 
systems can be accurately tracked (the Acid Rain program was limited to 
such sources), many other sources of emissions and offsets cannot be as 
closely monitored or quantified. Where these less-accurately-measured 
sources participate, the integrity of the cap-and-trade program is 
undermined, as is the certainty of the reductions sought and claimed. 
Most recently proposed cap-and-trade programs do not limit their 
proposals to sources with accurate measurement.
    Fraudulent Outside Offsets: Most U.S. proposals and the European 
Union are planning to make extensive use of outside offsets in their 
cap-and-trade program. The idea is to use outside offsets as a 
mechanism for keeping fossil fuel energy inexpensive and for 
encouraging ``additional'' projects that reduce carbon emissions in the 
developing world. Research to date on these projects indicates they 
will be subject to extensive fraud and will undermine pressure for 
reductions within the capped economies. First, the underlying concept 
of ``additionality'' (i.e., the reductions would not have happened 
without offset funding) is flawed because this key component of the 
program cannot be proven. The definition of additionality is therefore 
subjective, inviting intense lobbying by sophisticated,
    profit-seeking market participants and their consultants, and 
defeating program integrity in terms of net emissions reductions. 
Further, since people (and profit-motivated corporations) will always 
seek the cheapest offsets that they can purchase, there is a race to 
the bottom, through selection of the most flawed (least additional and 
measurable) projects, as documented by two Stanford researchers, David 
Victor and Michael Wara in their research paper available at: http://
pesd.stanford.edu/publications/
a_realistic_policy_on_international_carbon_offsets/. In addition, 
offsets have become a source of negative unintended consequences, such 
as the production in China of HCFC 23, a potent greenhouse gas which is 
a by-product of manufacturing HCFC 22. Research indicates that 
manufacturing of these products may be occurring solely for the purpose 
of destroying HCFC 23's and selling this activity as a carbon offset. 
(See http://www.sourcewatch.org/ index.php?title=Clean_Development
_Mechanism_and_HCFC-23_destruction.) Finally, an investigation into 
expenditures by the U.S. Congress of carbon offsets indicated that most 
of the projects were already completed at the time of the purchase, 
i.e., not additional. See: http://www.washingtonpost.com/wp-yn/content/
story/2008/01/8/ST2008012800764.html
    Rationing, Manipulation and Price Volatility: Even if the cap-and-
trade market were limited to facilities with continuous emission 
monitors and no outside offsets, the program would essentially be a 
form of rationing. Unlike a fee or tax, a cap requires Soviet-style 
preplanning. Program managers would try to choose a level of reductions 
in fossil fuel emissions that the economy could adjust to without 
energy shortages. Rolling blackouts/gas station lines could become a 
reality if demand for fossil fuels exceeds the supply and appropriate 
clean energy alternatives have not yet been built to fill in for 
reduced availability of fossil fuel energy. This type of problem 
occurred in a Los Angeles cap-and-trade program called RECLAIM in 2000 
(described below). The program was put on hold for a period of time 
because, if the cap had been enforced, it would have resulted in a 
lengthy period of rolling blackouts.
    Permits to pollute can easily be subject to gaming and 
manipulation, creating artificial scarcity that is likely to result in 
disruptions and unfairness, as initial and future allocations of the 
right to emit are distributed (whether by auction or other means) and 
traded. A preview of such disruptions was provided by the market 
manipulations that created the California energy crisis early in this 
decade. This potential was also demonstrated in a 2008 simulation at 
the University of California at Berkeley's Haas School of Business, in 
which students gamed a carbon-trading market for individual gain, 
leading to scarcity and high prices. (See, article on the UC Berkeley 
simulation: http://www.npr.org/templates/story/story.php?storyId
=91625716.)
    This potential for market manipulation is likely to contribute to 
undesirable price volatility. The resulting lack of price 
predictability in a cap-and-trade system (specifically, the lack of 
certainty concerning when the price of energy from fossil fuels will 
exceed the price of clean energy) reduces the incentive for the 
substantial investments in the new infrastructure and innovation 
necessary to provide alternative energy at affordable prices. (For 
additional information on price volatility and the resulting delay in 
clean energy investment, see the January 2009 study by the Brattle 
Group described at http://www.brattle.com/NewsEvents/NewsDetail.asp
?RecordID=589).
    Complex Bureaucracy, Lack of Enforceability and Inertia: In 
addition, setting up a cap-and-trade system will be very complex and 
time consuming. Once begun, a cap-and-trade program would have a great 
deal of inertia. It would be difficult to dismantle and would create a 
variety of interest groups with investments in maintaining the program, 
however ineffective it proved to be for addressing climate change. 
Further, the complex system of permits and offsets would be extremely 
difficult to police. A lack of effective enforcement (virtually 
impossible for offsets given the murky standards for additionality and 
plans to allow international trading) will encourage fraud and make the 
program a sham, while interest groups with a stake in the program fight 
to maintain and to ``fix'' it.
    RECLAIM and Over-allocation: In contrast to Acid Rain, the Los 
Angeles cap-and-trade program known as RECLAIM (the Regional Clean Air 
Incentives Market) failed spectacularly. The program was aimed at 
reducing ground level ozone. In RECLAIM, despite the presence of 
accurate monitors and sophisticated regulators, the initial cap was 
inflated (set too high,
    also called ``over-allocation''), which delayed most emission 
reductions for approximately seven years. At the end of that time, 
companies were accustomed to artificially low credit prices and almost 
no one had invested in emission control. As a result, the market 
collapsed when prices soared because the gradually declining number of 
permits no longer exceeded actual emissions. Following market collapse, 
the necessary control technology was required by regulation. http://
www.law.duke.edu/journals/cite.php?9+Duke+Envtl.+L.+&+Pol'y+F.+231
    European Trading Scheme (``ETS''): Similarly, attempts to
    design an effective carbon cap-and-trade system have failed in 
Europe under the Kyoto Protocol--a 1997 international accord to cut 
greenhouse gas emissions which the U.S. never ratified. In a 
demonstration of the many flaws of the cap-and-trade approach, 
utilities and other sources have underreported their emissions, 
purchased flawed offsets, driven up prices, reaped billions in 
undeserved profits and generally failed to produce promised emission 
reductions or any significant scale-up of clean energy. While Europe 
has indicated it can fix the problems it experienced in the first phase 
of its program, there are many indications that this is a flawed 
assertion. See analysis of problems with ETS at http://
www.openeurope.org.uk/research/etsp2.pdf and in a November 2008 GAO 
report at http://www.gao.gov/products/GAO-09-151.
    Conclusion on Cap-and-Trade: A cap-and-trade program for climate 
change focuses on keeping the price of fossil fuel energy low. Even a 
cap-and-trade program that did not include offsets or facilities 
without accurate monitoring (most plans include both of these 
components) will only have an indirect impact on the relative price of 
fossil fuel and clean energy. This lack of price predictability makes 
analyses of when clean energy investments will become profitable very 
uncertain, thereby delaying crucial investments in clean energy 
technology research, development and infrastructure scale-up. In 
addition, the integrity of cap-and-trade programs is vulnerable to 
over-allocation, poor quantification of emissions, invalid offsets, 
market manipulation and a lack of enforceability. In a cap-and-trade 
system, prices are raised and resources are drained by the profits and 
costs of brokers, traders, certifiers, lawyers and investors in carbon 
offsets, all of whom develop a vested financial interest in maintaining 
the program. Cap-and-trade will also require a huge oversight 
bureaucracy whose efforts will be thwarted by the inherent flaws in the 
program.
3. What are Carbon Fees with 100% Monthly Per Capita Rebate?
    Even if you accept our conclusion that cap-and-trade is virtually 
certain to fail, you may reasonably wonder whether there is a better 
alternative. Many economists, former EPA Administrator Ruckelshaus, the 
former Director of the Congressional Budget Office Peter Orszag and the 
CEO of ExxonMobil agree that carbon tax (or as we prefer to call it 
``carbon fees''\5\) is a better alternative, with many advantages in 
transparency, fairness and likelihood of effectively reducing 
emissions. See Congressional Budget Office report dated February 2008 
at p.VIII, (``A tax on emissions would be the most efficient incentive-
based option for reducing emissions and could be relatively easy to 
implement'') http://www.cbo.gov/ftpdocs/89xx/doc8934/02-12-Carbon.pdf.
---------------------------------------------------------------------------
    \5\ While the debate has not been framed this way to date, we use 
the term ``fees'' and ``rebate'' rather than the terminology of 
``taxes'' and ``dividend,'' because we believe these terms may more 
accurately convey two important points to the general public. First, a 
``fee'' is generally a charge for doing a specific activity (here using 
destructive fossil fuels), and when fees are collected, they are 
generally used for a specific purpose, not just dumped into the general 
revenue fund. Similarly, a ``rebate'' is more familiar to the general 
public as a return of funds previously spent than the concept of a 
``dividend.''
---------------------------------------------------------------------------
    What are Carbon Fees? Carbon fees are amounts that would be paid 
when fossil fuels enter the economy. These fees would be charged when 
oil, gas or coal are imported or extracted from the ground. We think 
that the term ``fees'' rather than the ``tax'' is most applicable 
because this is not a charge on income or property, but rather a 
targeted charge on a substance that is doing a major environmental 
damage. Since other taxes and fees are often applied at the point of 
importation or extraction, the additional cost of tracking and imposing 
carbon fees on fossil fuels should be relatively low.
    What is the Purpose of Carbon Fees? The purpose of carbon fees is 
to insure that, within a set time period, the price of fossil fuel 
energy exceeds the price of clean energy from sources such as wind and 
the sun. Only an absolute commitment to insuring that the price of 
fossil fuel energy will exceed the price of today's clean energy 
alternatives will insure the substantial level of investments in the 
panoply of possible clean energy technologies that are needed to 
rapidly transition away from fossil fuels and to do so in a way that is 
fair to all.
    Over What Period of Time Would Carbon Fees Be Phased In? In our 
example below (Illustration 2, provided as Attachment 1), we show 
carbon fees being phased in over a period of ten (10) years. This is a 
time frame that has been mentioned by Al Gore and other leaders as 
workable for weaning the U.S. economy from fossil fuels. However, fully 
phasing in carbon fees does not require a cessation in fossil fuel use. 
(See article ``Gore Pitches 10-year plan'' http://www.msnbc.msn.com/id/
25718230/.) It would only be the time within which even costly solar 
projects would have a price advantage over fossil fuels. Citizens would 
continue to receive monthly payments for the average amount of fossil 
fuel fees paid in the prior month, allowing them to continue to afford 
the average amount of fossil fuel fees paid by everyone.
    What Would Carbon Fees Be Used For? Our proposal is that one 
hundred percent (100%) of all carbon fees collected when fossil fuels 
are first introduced into the U.S. economy would be returned in equal 
monthly payments to all adults (a smaller share for children). The 
purpose of returning the entire amount to all adults is two-fold. 
First, this rebate would ensure that everyone could afford the average 
amount of fossil fuels introduced into the economy and that no one 
would suffer unfairly during the transition to a clean energy economy. 
Second, the monthly payments would create an incentive for 
conservation, as everyone would be very aware of the amount of their 
monthly payment and would be working to insure that they spent no more 
than that amount on fossil fuels. Because low-income people generally 
use less energy (but spend a bigger proportion of their income on 
energy), equal rebates would insure that lower income families would 
still be able to afford the fossil fuel energy they need. Finally, 
receiving equal monthly payments would help reinforce a collaborative 
spirit, a sense that all of us are working together to reduce the risks 
of damage to our climate from fossil fuels.
    Some people may believe that a portion of carbon fees should be 
used for the other critical measures described below. We are not 
strongly opposed to this but believe that the goal of cushioning the 
transition away from fossil fuels for individuals should not be 
compromised. In addition, we believe that regional adjustments in the 
amount of the fossil fuel rebate may be appropriate to reflect greater 
dependence on fossil fuels in certain regions at this time and, as a 
result, greater stress during the transition.
    How would Carbon Fees help Clean Energy Development? Carbon Fees 
would help clean-energy development by giving prospective investors 
certainty in two areas. First, investors would be confident that every 
unit of clean energy available at the end of the ten-year time period 
would be more affordable to consumers than any unit of fossil fuel 
energy. This would mean that, while investors would not know which 
clean energy technology or firm would be most successful, they would 
know for sure that any firm able to actually produce such energy would 
be able to compete successfully with all existing fossil fuel energy 
products. Carbon Fees would also insure that there is little additional 
investment in fossil fuel projects, such as new coal-fired power plants 
or new exploration to develop shale oil.
What Historical Example Demonstrates that Carbon Fees Would Be an 
        Effective Market Mechanism for Climate Change?
    The Montreal Protocol--William Reilly: At the same time that the 
Acid Rain program was enacted, in 1990, the United States used a very 
different approach to create additional economic incentives for the 
scale-up of substitutes for ozone depleting CFC's pursuant to the 
Montreal Protocol. William Reilly, the EPA Administrator, noted the 
crucial facts in his opening statement at the second meeting of parties 
to the Montreal Protocol:
    ``On January 1, 1990, a new tax went into effect in the United 
States, a tax on the manufacture of CFCs. This tax exceeds in value the 
cost of CFCs themselves and it will rise steeply in the years ahead, 
raising $400 million in new revenues this year, and raising $5 billion 
over the next five years. This added cost of CFCs sends a powerful 
signal: it says bring on the substitutes fast! And it reduces the 
comparative economic advantage CFCs would otherwise enjoy over the more 
expensive substitutes. This tax on CFCs has already caused the United 
States to reach the agreed targets for reduction earlier than 
required.'' (http://www.epa.gov/history/topics/montreal/04.htm) 
(Emphasis added.)
    As this experience with the CFC tax demonstrates, a carbon fee or 
tax can help reach agreed targets for reductions quickly. The entire 
economy will be stimulated by the rush to develop the most cost-
effective substitutes for fossil fuels. This CFC tax example, rather 
than the Acid Rain example, is the appropriate model for the problem we 
face today with climate change. The difference is that, given the 
enormous cost and scope of the transition to clean energy, a monthly 
per capita 100% rebate will be needed to keep energy affordable for 
everyone, while still sending the critical message with respect to the 
relative price of damaging as opposed to non-damaging sources of 
energy.
    Thank you!
Please reference our longer discussion paper at
http://www.carbonfees.org/home/Cap-and-TradeVsCarbonFees.pdf

Laurie Williams and Allan Zabel, as parents and citizens,
6005 Auburn Ave.,
Oakland, California 94618
www.carbonfees.org
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="07506e6b6b6e666a74297d6665626b47606a666e6b2964686a">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="65120c09090c0408164b1f040700092516070602090a0704094b0b0011">[email&#160;protected]</a>

                                 <F-dash>

    ** Attached for the record is testimony that was previously 
submitted to the House Intelligence Committee. Many of the 
environmental and ecosystem impacts of climate change could 
significantly affect national security issues. We hope that you will 
take these aspects into consideration when establishing environmental 
objectives and ultimately in crafting your climate change legislation.

Paul G. Gaffney II (Vice Admiral, U.S. Navy (Ret.))
President, Monmouth University,
Before a Joint Hearing of the
House Permanent Select Committee on Intelligence
Subcommittee on Intelligence Community Management
and
House Committee on Energy Independence and Global Warming
U.S. House of Representatives
Washington, DC

    Dear Chairwoman Eshoo, Chairman Markey, Congressman Rush Holt (my 
Representative) and Members of the Committees:

    Thank you for the opportunity to appear this morning at this joint 
hearing of your Committees. I am honored by your invitation to briefly 
discuss the national security implications of climate change, and to 
provide you with thoughts about some steps that the Federal Government 
can take to more specifically measure climate change indicators.
    In sum, my recommendations to the Committees are two-fold: The 
Federal Government must plan seriously for the potential impact of 
environmental effects on both the nation's security and the security of 
regions around the world; and, To help ensure that environmental 
threats are properly understood, we should focus our national 
investments and technical capabilities to measure specifically, when we 
can, the most critical physical processes of our planet.
    These issues are, in my opinion, intertwined and mutually 
supportive. I have come to these conclusions as a result of my work 
since 1991. Since that time, I have served as: Commander of the Naval 
Research Laboratory; Commander of the Naval Meteorology and 
Oceanography Command; Chief of Naval Research; member of MEDEA and its 
U.S. Environmental Task Force (ETF) and its related Environmental 
Working Group (EWG) within the ``Gore-Chernomyrdin Program;'' member of 
the Military Advisory Board of the 2007 CNA Study ``National Security 
and the Threat of Climate Change (hereinafter the ``2007 CNA Report);'' 
President of the National Defense University; Commissioner on the U.S. 
Ocean Policy Commission; member of the Joint Ocean Commissions 
Initiative; and presently as Vice Chair of the statutory Ocean 
Research/Resources Advisory Panel (ORRAP) and President of Monmouth 
University.
    The need to focus the proper attention on environmental threats and 
studying the Earth's critical physical processes has only become more 
urgent by the climate change discussion. To explain my reasoning behind 
my recommendations, I would like to discuss briefly the findings of the 
2007 CNA Report and, then, the power of leveraging defense and 
intelligence data to both better measure the progress (or even the non-
progress) of global climate change and inform climate change policy.
    I was a member of the Military Advisory Board (a group of eleven 
retired three- and four-star generals and admirals for all the military 
branches) that sat with CNA as it developed its Report on the national 
security implications of climate change. I support the Report's 
discussion, findings and recommendations and present my own narrow view 
of one aspect of the report as recorded on the Report's 23rd page. 
Further, I applaud CNA for its timely attention to this heretofore 
largely unaddressed aspect of climate change.
    The Report, like the recent draft NIA on security and climate 
change, does not judge whether climate change is occurring, whether 
mankind is responsible for it or whether humans can turn it around. 
Rather, it points to the international and regional security 
consequences of climate change if the disturbing environmental signals 
measured in recent years continue unabated.
    The CNA Report likens the threat of climate change to that of the 
strategic threats we endured during the Cold War. That is: while the 
probability of disastrous climate change cannot be determined 
certainly, the effects of climate change (if current trends continue) 
on international security are so great that one must prepare to deal 
with severe security consequences. First principle: whether one 
believes climate change will happen or not, the effects if it does 
happen are dangerous enough that security forces must plan for it.
    Within the Report, we cite water and water-related issues (such as: 
drought, famine, flooding and disease and resultant migration of rather 
desperate peoples) as major threats to regional security, globally.
    The CNA Report finds that the least developed nations of the world 
as most likely to be affected by climate change phenomena and are least 
likely to be able to cope with them.
    In the Report we call for deliberate planning by U.S. security 
organizations including the Defense, Intelligence and diplomatic 
communities. I personally think it is most useful if the climate 
science community, both from inside Government and outside, can be as 
specific as possible about regional effects. Global climate change may 
prove to show an overall average warming of global air and sea 
temperatures, but global climate change is far from average. In some 
regions it can be warmer, others much colder (especially if an abrupt 
climate change scenario occurs in the North Atlantic). Some areas could 
witness more rain or sea level rise; both imply flooding. In still 
other areas, we could see drought and inevitable famine.
    I think the CNA Report correctly wraps its findings in a gloomy 
theme: adverse environmental conditions created by climate change, if 
unabated, affect undeveloped nations first, and whether it is too much 
water or too little, the intermediate results will be trans-national 
migrations of desperate peoples who are trying to survive which leads, 
finally, to regional strife.
    The question is: where will the effects of climate change be seen 
and what will be those changes be so that U.S. security leaders can 
deliberately include expected effects in their regional plans? Second 
principle: Understand more specifically, through better measurements, 
what is going on with climate change especially in key natural 
environments (such as: the Arctic, desert fringe environments, low 
lying coastal areas, historical breadbasket regions and glaciers) and 
geopolitically sensitive areas (such as: the Subcontinent, sub-Saharan 
Africa, Middle East and China).
    I have recently heard that the National Academies, with the 
personal leadership of its President, Dr. Ralph Cicerone, is working to 
establish indices and metrics to inform future long term requirements 
for measurements of change on our planet.
    I mentioned earlier, the U.S. security community, specifically, 
needs to understand where climate change effects have the highest 
potential to affect regional security. The nation, generally, needs to 
understand if climate change is progressing. And, if the nation takes 
any policy steps to stem perceived climate change, it needs to know 
whether those steps (policy, lifestyle or investment changes) are 
having any impact.
    To this end I remain confident that the Defense and Intelligence 
communities can and should be leveraged by the civil U.S. climate 
science community to better understand perceived climate change 
signals.
    I have seen the value of leveraging the talent, sensor/analysis/
computation capabilities, global presence, and data collected (or to be 
collected) and archived by these government agencies. I saw it during 
the period 1991--2000 while MEDEA and its related groups were in 
action. Two general benefits derive for such undertakings:

    a)  previously un-released data and information from national 
security systems may help civil scientists get a fuller or clearer 
picture of what is going on in nature, and
    b)  government scientists and decision makers from the security 
community may get a better insight into their own mission-related 
challenges by conferring with top civil scientists who have received 
security clearances.

    The following is a sample list of techniques that could be (have 
been) used in civil-government collaborations that are designed to 
cross security boundaries:
    Data can be simply released if deemed no longer classified; it may 
never have been classified or outlived its classification and just 
never been released.
    Raw data can be reclassified, after very deliberate review 
following carefully structured processes.
    Useful unclassified information can be derived from classified, un-
releasable data
    Defense and Intelligence scientists can confer continually with 
appropriately (and rigorously) cleared civil climate scientists so both 
sides can benefit.
    Future space, ship, submarine, aircraft, human and in situ sensor 
collections can consider both mission-agency and environmental needs in 
system design, operational employment decisions and data distribution.
    ``Fiducial sites'' (geographic sites predetermined as 
scientifically important to observe) can set up at which measurements 
from every possible civil, commercial and classified sensor can be 
made, repeatedly, over long time periods--allowing climate change to be 
actually measured, not just estimated. An example is recently released 
sea ice imagery from the Arctic.
    Certainly, the deliberate acts of releasing data or deriving 
unclassified products from un-releasable data sets will require 
additional security processing and actual environmental analysis work, 
but such costs will be considerably less than replicating data 
collection missions, perhaps too late.
    This cost-benefit point is more important when one considers the 
stakes involved in either underestimating the effects of or over-
reacting to global climate change or their security-jeopardizing 
regional effects. I would make the same comment about costs to 
appropriately clear and keep updated a few dozen of the nation's top 
climate scientists who would work with government scientists with all 
data and all talent available to both.
    If national security leaders are to make actionable regional 
security plans that consider climate change, then they need climate 
change effects specificity for their respective regions/theaters. Even 
the best scientists cooperating with government planners, but without 
access to the best scale or time-series data, will not be able to help 
enough. In those trouble parts of the world about which we worry most, 
indigenous populations and governments are not prepared (not willing) 
to collect sophisticated, long-time-series data necessary for measuring 
climate change speed, magnitude or direction. We can get more precise 
data, incidental to other mission-related collection efforts, in the 
regions where it has been least collectable by open source means, if we 
leverage existing and planned Defense and Intelligence assets more 
fully. Yes, the successes of MEDEA are about a decade old and many new 
sensor systems have come into being in the civil and commercial world. 
I have recently seen a comprehensive unclassified compilation of open 
source ``collectors'' that can help us monitor the environment. Yes, 
again, we do have access to more ``open'' information, but the national 
security communities may have different flexibilities in satellite 
orbits, undersea access and resolution, for example. The Defense and 
Intelligence community may also have useful archives going back 
generations and regional specialists who can add to specificity 
determinations and understanding.
    I would like to close with a general comment about potential U.S. 
national policies and investments to stem perceived climate change. 
Climate change is probably occurring, as it has so many times over the 
geologic history scale. Man may have created it or may be contributing 
to it. Man may be able to turn it around. Maybe, maybe, maybe. But, if 
our government makes substantive policy decisions that substantially 
consume our wealth or substantially change our life quality, then we 
have an obligation to use every asset at out disposal to determine if 
those ``substantive (perhaps uncomfortable) policies'' are bearing 
fruit. We cannot say that today. New efforts including sufficient 
investments in fundamental research, development of an integrated ocean 
observing system (IOOS) and the leveraging of Defense and Intelligence 
capabilities--to measure the efficacy of our huge investments are 
warranted.

                                 <F-dash>

                       Statement of Richard Pauli
    It does not have a name like treason or treachery, but the effects 
are just as bad--or worse.
    Our purposeful ignorance and deliberate scientific deception at the 
service of branding and market share is no less than treason to our 
civilization. Call them deniers, or denialists, skeptics, deniasaurs: 
be they professional PR firms, pundits or pseudo scientists who deny 
Global warming or that humans have caused it. I accuse them of helping 
to cripple our future. Purposefully promoting confusion by the 
corporation, the state or any organization is a horrible crime. This 
clearly harms our children and our future. It is a serious crime, only 
the punishment is undefined.
    The by-product of our carbon industry is a greenhouse gas assault 
on atmosphere and oceans. We know of this damage now, so with 
purposeful diversion from this danger, this is causing harm.
    To pick one of many accused: Since 1998 ExxonMobil has spent over 
$23 million in publicly declared funding to support denialist 
organizations campaigning to disrupt public understanding of global 
warming. Exxon's stated goal was to fund a campaign where ``average 
citizens understand'' (recognise) uncertainties in climate science; 
recognition of uncertainties become part of conventional wisdom''. 
Their PR campaign was to present ``scientific uncertainties in language 
that the media and public can understand``--to confuse people. They 
have recently halted this funding, saying it diverts attention from 
addressing energy in an ``environmentally responsible manner''.
    Global citizens assaulted by floods, heat waves, storms have begun 
to feel the changes, but somebody continues to manufacture uncertainty. 
Now well-funded denialists begrudgingly accept climate change but will 
insist that human industry has no influence on CO<INF>2</INF> levels in 
the atmosphere. Even though all sane and sober climatologists say 
humans caused global warming--certainly caused the problem. Denialists 
are foisting a message that humans cannot possibly understand the 
problem, hence not understand the solution required. Denialists seize 
the smallest errant factoid and nurture and amplify those doubts as 
worthy of dismissing all.
    This same tactic applied to tobacco wars, ``nicotine is not 
addictive'' delayed for 50 years . . . to many deaths. And for the anti 
darwinist intelligent designers, this now moves into our textbooks and 
curriculum. the harm is difficult to calculate.
    Pushing this message of deception and confusion is as treacherous 
as any other way of lying to children, worse since this robs their 
future, and denies the hope for facing problems.
    For over 2 decades thousands of scientists world-wide have been 
combining research for United Nations IPCC reports on global warming. 
Using compromising language of consensus--the group of IPCC scientists 
say that AGW is highly likely with over 90% assurance. By contrast, 
Exxon's tactical brief asked denialists to: ``Develop a global climate 
science information kit for media including peer-reviewed papers that 
undercut the ``conventional wisdom``on climate science.''
    Global warming is radically dangerous for humans, we face huge 
changes. Statistically small odds for implausible outcomes deserve 
small consideration--but the demand for attention is diversionary. In 
the early days of automobile seat belt deployment [there was a seatbelt 
free age], the public resisted with a notion that if a car ended upside 
down, we would not want to be trapped by our seatbelt, or if hurtling 
off a cliff--we want to be unrestrained by a seat belt so to be thrown 
clear unharmed. Certainly this was possible, but completely 
implausible. And humans may miraculously avoid significant global 
warming, it is just not plausible.
    Humans can respond heroically to clear displays of danger--So 
another PR and denialist tactic is to label scientific warnings as 
``alarmist'' As if all hysterical or alarmist speech is false. This 
forces responsible climatologists other scientist into using tame, 
milque-toast language. THe IPCC report was forced to use the terms 
``likely'' , unlikely and the most serious warning allowed ``highly 
likely''. Does your fire alarm or smoke detector say ``It is highly 
likely this smoke suggests a fire may be near'' If other famous danger 
warnings were delivered as carefully as today's convoluted messages 
what might have happened? Paul Revere: ``It is highly likely the 
British are coming!'' Can we see past the mask of tame phrasing to act 
appropriately? Is this speech wrong. Illegal?
    Or with the Titanic, ``There is a 90% chance there is an iceberg 
dead ahead, highly likely we will impact'' So how should we act with a 
90% assurance of the outcome?
    Who is telling us otherwise, and why? The press has abrogated 
support of democracy by giving air and ink to the anti science and 
industrial PR. Tame, confusing language has worked to stifle public 
policy, prevent government from regulating these toxins
    Somehow because a few Carbon industrialists whine or complain--this 
somehow constitutes a serious challenge to the science? And no, 
nicotine is not addictive. And perhaps they will find Iraqi WMDs too. 
And carefully polite scientists fail to rise up to that PR fight. 
Business supported by cheap carbon does little to restrain the rope-
making that forms nooses around our necks. I see no science here, only 
pure business interests pushing muddled thinking.
    With the recent Exxon mea culpa, we see denialists begrudgingly 
accept that global warming is happening, but stridently claim that 
humans had no role in causing it and even Anthropogenic Global Warming 
(human caused) is a hoax. This allows their conclusion: ``Since humans 
did not cause it, humans cannot possibly fix it`` And works nicely to 
reinforce the false notion that humans are powerless and should instead 
continue carbon consumption. So the fossil fuelers deliver the message: 
``Do not dare interfere with coal, oil, or any other carbon 
consumption''.
    This is a PR campaign. And it is global carbon industries--
unconstrained by ethics or science--that has helped cause this problem.
    Anthropogenic Global Warming denialists may seem tragic and make us 
angry, and may even have business motives--but where is the crime? We 
should charge them with global ecological treason, being an enemy of 
the people, fostering rapacious greed, accelerating the destruction of 
civilization and robbing the future from our children. This issue 
concerns all beings on the planet. No one has the right to ask us to 
die before we fully pursue a life. Do they?
    If denialists believed in a flat earth--I could regard this as 
charmingly eccentric--unless they demand we change navigation 
principles in our travels. Or, if some folks believe the lunar landing 
was a hoax; what do I care? unless it restricts real space exploration. 
Some still believe in phlogiston, or Bigfoot. But advocating scientific 
suppression by confusion and the clouding of conclusions regarding our 
dangerous future; Asking me to live in the danger that you create--This 
is an undefined criminal act that I cannot accept.
    The IPCC says there is a 90% chance of real danger is ahead. If 
someone said it is highly likely that you will fall through thin ice 
and drown, or a 90% consensus that your beach-front property will be 
flooded within 20 years--how will you act differently with that 
information? With this warning, I know I have to act differently.
    These dangers are real. We see them clearly, and we know more 
change is coming. I want to know of dangers ahead.
    I speak directly to denialists with these words:
    If you fail to see danger ahead, failing to help defend, then just 
wake up and open your eyes and ears. If you see danger ahead, and you 
are quiet, failing to say anything about it, staying silent--well shame 
on you.
    Some think that unethical.
    When you try to tell me, using mass media to tell me that real and 
serious dangers ahead are just hallucinations, if you divert attention 
and falsely challenge the science, and you act to deceive, and you try 
to sew doubt, and you cancel further studies, you manipulate public 
policy, and you deny the entire problem--then damn you as evil.
    Whether you are delusional, a fool or a paid stooge of business 
interests, that is treachery amounting to global treason on the human 
race and all beings. Beyond shame, may you descend to that special 
place in hell.
    If it is OK to yell ``Fire!'' in a crowded theater, do you think 
the opposite is OK? In a crowded theater that is burning, we feel heat 
and smell smoke, we move toward the exits--are you telling me is it OK 
for the usher to yell ``There is no fire!, sit down?'' or even ``There 
is no fire, sit down and lets have a debate.''
    Nothing illegal about expressing your thoughts.
    You know you are talking about politics, not science
    You know the data refutes you,
    Your tactics have nothing to do with open discussion,
    Everything to do with diversion and delay.
    And nothing to do with science.
    We know how you have emerged victorious from the tobacco industry 
PR campaigns. You helped extend tobacco product sales for decades 
beyond their proper life--all by a professionally unified denial 
campaign. You kept a toxic drug delivery mechanism out of the FDA and 
deflected legislation that properly should have banned nicotine. And 
you cemented the flow of profit. Now the very same PR agency and 
individuals are deep into the climate change denialist movement--this 
time paid for by the carbon fuel industries.
    Could it be that all the big carbon fuel companies fully realize 
the decades of unrestrained carbon dioxide pollution has actually 
caused climate instability?
    Could it be that all this subsidized deceit and purposeful 
denialism is here just to prevent any interference to their business 
operations? Are your words intentionally designed to detract science 
and delay responsible legislation?
    It is sleazy, immoral, it ought to be illegal, and pretty soon the 
courts may find you liable. Eventually you will be shunned and reviled 
for your words and actions.
    We are not talking about a little tobacco and cancer here. The 
stakes are the ultimate: the very survival of our civilization. Call it 
Climaticide We need lots of science focused on knowing the extent of 
the problem. We don't need paid obstructionists, willful skeptics, and 
professional denialists distracting the quest for more information. We 
need to be making adaptation and mitigation plans. First off, carbon 
fuel companies should stop these PR campaigns. And we have contempt for 
your ignorant followers that you trick into academic suicide just to 
sabotage research and cripple public policy.
    Your actions are close to criminal because your words act to 
inflict potential harm to the innocent. If you don't see that then try 
these common analogies:
    Let's say we all commute in a car where the driver says the brakes 
are bad and maybe we should not ride, but one passenger insists the 
brakes are fine and we should keep going in fast traffic. The driver is 
worried and wants to slow down and check the brakes. Any skeptic that 
denies danger and tries to stiffle more information should shut-up and 
let the driver decide.
    Or say your carload is driving fast in heavy fog on a darkened 
highway; the radio reports the bridge ahead has just collapsed. You 
start to slow down so as to carefully see the road ahead, but one of 
your passengers insists that you keep driving the speed limit. He 
claims that he can see perfectly well, and insists that everything is 
OK, and he did not hear any warnings. Nope again, in my car, I would 
say Shut Up.
    Or consider the common story of a successful small town tourist spa 
that finds it has poison water that kills people--all the townspeople 
violently deny the facts, just to keep their commerce going. The 
difference here is that EVERYONE on the planet will suffer in some way. 
No matter how many want it to be OK, if there is even suspicion then 
everyone needs to find out what is wrong. Don't fight these correct 
acts.
    Remember that just prior to Pearl Harbor the impending attack was 
seen on radar. Seeing more planes on a screen than anyone had ever seen 
before, someone was skeptical, and doubted what they saw. They said it 
must have been a flock of birds, or friendly flights. But they 
certainly did not cling to that skepticism after seeing the smoke and 
fire of the attack. They did not persist in denial; I am not sure how a 
denialist of today would have been regarded back then.
    We are on a warming planet, the climate is destabilizing, we are 
getting in trouble and people are dying. You are pandering to human 
denial and cultivating human weakness for self-deception. Then you try 
to redirect public attention with debates about the shape of the 
arguments instead of the substance. Stop it.
    And you know, with HUMAN CAUSED, CLIMATE DESTABILIZATION, the 
stakes are higher than Pearl Harbor or 9-11 or even Katrina. Until 
someone is brave enough to call you out as saboteurs to our future, or 
to haul you into court, or to win a lawsuit--and that may happen soon--
until then, just shut-up.
    We are looking for solutions, we first have to know just how bad 
the problem is, and you don't want to help, you don't want to do 
research. You just want to promote delay and engage in ideological 
squabbling. Well, you can think your own thoughts, but don't obstruct 
the important progress of science and government and industry and 
community. We will not award false importance to your delusions by 
merely examining the process of a phony debate. There's important work 
to do.
    Many have served or now serve in the military, Army, Navy or 
AirForce. And right now we all serve in the global survival campaign. 
And each of us is on guard duty observing changes and learning the 
science and calling out errors and blunders, stupidity and folly.
    We are looking to know the enemy so we may better act.
    If someone can't do guard duty, that's OK, we give them a shovel 
because everyone pitches in--there is plenty to do. If we're on guard 
duty and we fall asleep and miss seeing the enemy, then our buddies may 
cover for us; we quickly learn the consequences and we promise never to 
do that again. And we keep that promise If we misperceive and cannot 
identify the enemy then we will need more training to better see the 
dangers. We learn and we change.
    But if the soldier on guard duty deliberately turns away from the 
danger, closes eyes, turns away from the watch, mis-reports, misdirects 
our defenses, and lies about the crisis ahead, and then works to sew 
doubt in the troops--then that is treachery.
    All soldiers know this.
    Neither fellow soldiers nor generals will tolerate this.
    There is no confusion about sabotage.
    Warriors will accept no less than loyalty.
    The first action is to halt the behavior that amounts to treachery 
and treason.
                                                      Richard Pauli
                                                            Seattle
                                                      February 2009

                                 <F-dash>

                       Statement of Wayne Pacelle

Dear Chairman Rangel:

    On behalf of The Humane Society of the United States (HSUS), the 
nation's largest animal protection organization, and our global 
division, Humane Society International (HSI), representing nearly 11 
million members and constituents, I welcome the opportunity to submit 
comments to the Ways and Means Committee regarding scientific 
objectives for climate change legislation.
    The HSUS/HSI are encouraged that Congress is seeking input on the 
future of climate change legislation. We are hopeful that recent 
scientific evidence from the United Nations Food and Agriculture 
Organization (FAO), as well as the U.S. Environmental Protection 
Agency, regarding the role of animal agriculture in climate change will 
be taken into account as legislation to mitigate the effects of global 
warming is implemented.
    We have provided a number of recommendations to help achieve this 
goal.
Background
    Agriculture is both a driver of climate change and is also 
influenced by climactic fluctuations, such as increases in temperature 
and rainfall that result from a changing climate. Although experts 
disagree on the precise totals, agriculture and its related land-use 
changes, such as deforestation for feed crop cultivation, are 
responsible for at least one-third of global greenhouse gas (GHG) 
emissions.\1\ As well, agriculture is the human endeavor that will 
likely be the most affected by climate change or global warming.
---------------------------------------------------------------------------
    \1\ Paustian K, Antle J, Sheehan J, et al. 2006. Agriculture's role 
in greenhouse gas mitigation. Pew Center on Global Climate Change, p. 
18. www.pewclimate.org/docUploads/Agricul
ture%27s%20Role%20in%20GHG%20Mitigation.pdf.
---------------------------------------------------------------------------
    Animal agriculture, in particular, contributes significantly to GHG 
emissions--more than 50% of emissions from agriculture and its 
associated land-use changes.
    An FAO report in 2006 found that the farmed animal sector is 
responsible for 18% of global GHGs measured in carbon dioxide 
(CO<INF>2</INF>) equivalent, more than the entire transportation 
sector.\2\ In addition, FAO estimates that a cow/calf pair on a beef 
farm is responsible for more GHG emissions than a person traveling 
8,000 miles in a mid-sized car.\3\
---------------------------------------------------------------------------
    \2\ Steinfeld H, Gerber P, Wassenaar T, Castel V, Rosales M, and De 
Haan C. 2006. Livestock's long shadow: environmental issues and options 
(Rome: Food and Agriculture Organization of the United Nations, p. 
xxi).
    \3\ Scherr S and Sthapit S. 2009. Farming and land use to cool the 
planet. In: State of the World 2009 (New York: W.W. Norton, 2009) 
citing Steinfeld H, Gerber P, Wassenaar T, Castel V, Rosales M, and De 
Haan C. 2006. Livestock's long shadow: environmental issues and options 
(Rome: Food and Agriculture Organization of the United Nations).
---------------------------------------------------------------------------
    Globally, animal agriculture is responsible for 9% of 
CO<INF>2</INF> emissions,\4\ accounting for sources such as on-farm 
fossil-fuel use for lighting, temperature control, automated machinery, 
and ventilation (90 million tonnes per year);\5\ the packaging, 
transportation, and application of nitrogen fertilizer for feed crops 
(more than 40 million tonnes per year);\6\ and deforestation for 
grazing (2.4 billion tonnes per year).\7\
---------------------------------------------------------------------------
    \4\ Steinfeld H, Gerber P, Wassenaar T, Castel V, Rosales M, and De 
Haan C. 2006. Livestock's long shadow: environmental issues and options 
(Rome: Food and Agriculture Organization of the United Nations, p. 
xxi).
    \5\ Id. at 88-9.
    \6\ Id.
    \7\ Id. at 90.
---------------------------------------------------------------------------
    Furthermore, animal agriculture is responsible for 40% of global 
methane emissions and 65% of global nitrous oxide emissions.\8\
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
GHG Emissions from Industrial Farm Animal Production
    In the United States, a substantial portion of the GHGs emitted 
from agriculture come from concentrated animal feeding operations 
(CAFOs). Specifically, the EPA noted in 2006 that the primary reason 
for the overall increase in methane emissions is the shift towards 
confining pigs and cows used for milk production in larger facilities 
that use liquid manure management systems.\9\ In addition, according to 
the EPA, the overall increase in nitrous oxide emissions is largely due 
to the concentration and industrialization of the poultry industries, 
namely the shift toward litter-based manure management systems, 
confinement in high-rise houses, and an overall increase in the U.S. 
poultry population.\10\
---------------------------------------------------------------------------
    \9\ U.S. Environmental Protection Agency. 2007. Inventory of U.S. 
greenhouse gas emissions and sinks: 1990-2005. Draft for public review, 
p. 6-7. February 20. www.epa.gov/climatechange/emissions/downloads07/
07CR.pdf.
    \10\ U.S. Environmental Protection Agency. 2007. Inventory of U.S. 
greenhouse gas emissions and sinks: 1990-2005. Draft for public review, 
p. 6-7. February 20. www.epa.gov/climatechange/emissions/downloads07/
07CR.pdf.
---------------------------------------------------------------------------
    Because of their size and production levels, each CAFO is capable 
of emitting hundreds or thousands of tons of pollutants into the 
ambient air annually. CAFOs are responsible for 47-60%\11\ of the 500 
million tons of manure produced by animal feeding operations each year, 
more than three times the amount of waste produced by humans in the 
United States each year.\12\
---------------------------------------------------------------------------
    \11\ U.S. Environmental Protection Agency. 2006. Fact sheet: 
concentrated animal feeding operations proposed rulemaking. June. 
www.epa.gov/npdes/regulations/cafo_revisedrule_factsheet
.pdf.
    \12\ U.S. Environmental Protection Agency, National Pollutant 
Discharge Elimination System permit regulation and effluent limitation 
guidelines and standards for concentrated animal feeding operations 
(CAFOs); Final Rule, 68 Fed. Reg. 7176, 7180 (February 12, 2003).
---------------------------------------------------------------------------
    At least two-thirds of all arable land in the world is used to grow 
annual grains, such as corn and soybeans, which depend heavily on 
chemical inputs, as well as mechanical tilling of the soil. Nearly half 
of all that grain--some 40% of the global corn crop and up to 80% of 
the global soybean crop--is used to feed farm animals, not people.\13\
---------------------------------------------------------------------------
    \13\ Smil V. Distinguished Professor University of Manitoba. 2008. 
Personal communication with Danielle Nierenberg.
---------------------------------------------------------------------------
Recommendations
    Reducing GHG emissions through improved management strategies: The 
GHG emissions from animal agriculture can be reduced. Simple work-
practice changes, such as reducing the time between surface application 
of manure and incorporation into soil, ensuring proper soil drainage, 
ensuring adequate oxygen exposure to stockpiles, ensuring proper 
nutrition for animals, or irrigating directly after application, for 
example, can significantly reduce emissions.
    Reducing GHG emissions through more natural animal feeding 
practices: The transition from farm animal production systems reliant 
on feed crops, like grain and soy, to pasture-raised, organic, or other 
extensive farming systems can result in less methane, ammonia, and 
nitrous oxide, and is potentially more cost-effective as these 
extensive farming methods require less inputs, maintenance, and energy 
on-farm.\14\ Typically, cattle confined in feedlots or in intensive 
confinement dairy operations are fed an unnatural diet of concentrated 
high-protein feed consisting of corn and soybeans. Although cattle may 
gain weight rapidly when fed this diet,\15\ thereby reaching slaughter 
weight in a shorter period of time, such concentrated diets may also 
lead to increased methane emissions from the animals.\16\ The standard 
diet fed to cattle raised for beef confined in feedlots contributes to 
manure with a ``high methane producing capacity.''\17\ In contrast, 
cattle raised on pasture, eating a more natural, low-energy diet 
composed of grasses and other forages, may produce manure with about 
half of the potential to generate methane.\18\
---------------------------------------------------------------------------
    \14\ Gurian-Sherman, D. 2008. CAFOs Uncovered. Union of Concerned 
Scientists, pp. 3, 54.
    \15\ Radostits O, Gay C, Blood D, et al. 2000. Veterinary Medicine: 
A Textbook of the Diseases of Cattle, Sheep, Pigs, Goats and Horses, 
9th Edition, p. 285.
    \16\ Paustian K, Antle J, Sheehan J, et al. 2006. Agriculture's 
role in greenhouse gas mitigation. Pew Center on Global Climate Change, 
p. 18. www.pewclimate.org/docUploads/Agriculture%
27s%20Role%20in%20GHG%20Mitigation.pdf.
    \17\ U.S. Environmental Protection Agency. 1998. Inventory of U.S. 
greenhouse gas emissions and sinks: 1990-1996, 5-5. www.epa.gov/
climatechange/emissions/downloads06/98CR.pdf.
    \18\ U.S. Environmental Protection Agency. 1998. Inventory of U.S. 
greenhouse gas emissions and sinks: 1990-1996, 5-5. www.epa.gov/
climatechange/emissions/downloads06/98CR.pdf.
---------------------------------------------------------------------------
    Increasing carbon sequestration through pasture-based production: 
In addition, well-managed and rotational grazing systems can likely 
sequester more carbon than feedlots where animals are raised on energy-
intensive corn and soybeans. Soils and pastures can act as ``carbon 
sinks,'' soaking up carbon from the atmosphere. A 2005 study found that 
not only do pasture-raised animals require less operational fuel and 
less feed than do confined animals, but pasture-based farming systems 
could ``tie up 14 million to 21 million metric tons of CO<INF>2</INF> 
and 5.2 million to 7.8 million metric tons of N2O in the organic matter 
of pasture soils.''\19\
---------------------------------------------------------------------------
    \19\ Boody G, Vondracek B, Andow D, et al. 2005. Multifunctional 
agriculture in the United States. BioScience 55(1):27-38.
---------------------------------------------------------------------------
    Reducing fossil-fuel dependency and on-farm GHG emissions through 
organic farming methods: Organic meat production typically uses less 
fossil-fuel energy, in part because thousands of transport miles for 
shipping feed may be eliminated,\20\ and can also significantly reduce 
on-farm GHG emissions. A 2006 life cycle analysis of three modes of 
Irish beef production--conventional, agri-environmental, and organic--
found that both types of extensive systems (i.e., agri-environmental 
and organic) generate less GHGs than the conventional system, with the 
organic system producing the least GHGs (17% less than conventional). 
The difference would likely be even more dramatic in comparison to U.S. 
conventional beef production, since Irish beef cattle are primarily 
finished on grass rather than on grain.\21\ Specifically examining 
nitrous oxide outputs, organic farming has reduced emissions compared 
with conventional production systems. The organic production method 
avoids overproduction of manure due to its practice of limiting animal 
stocking densities to the land available for manure application--i.e., 
on an organic farm, farm animal populations usually do not exceed the 
land's ability to responsibly absorb and utilize nutrients from their 
manure.\22\
---------------------------------------------------------------------------
    \20\ Kotschi J and Miller-Semann K. 2004. The Role of Organic 
Agriculture in Mitigating Climate Change: A Scoping Study. Bonn, 
Germany: International Federation of Organic Agriculture Movements.
    \21\ Casey JW and Holden NM. 2006. Greenhouse gas emissions from 
conventional, agri-environmental scheme, and organic Irish suckler-beef 
units. Journal of Environmental Quality 35:231-239.
    \22\ Kotschi J and Miller-Semann K. 2004. The Role of Organic 
Agriculture in Mitigating Climate Change: A Scoping Study. Bonn, 
Germany: International Federation of Organic Agriculture Movements.
---------------------------------------------------------------------------
    Investing in scientific analysis and research of the impacts of 
farm animal production systems on GHG emissions: Although preliminary 
studies have been published, there is a continued and urgent need for 
more analysis and research regarding GHG emissions from different farm 
animal production systems, as well as different mitigation strategies. 
Later this year, the Leopold Center for Sustainable Agriculture at the 
University of Iowa will release a study comparing beef feedlot systems 
to pasture-based cattle production and the University of California 
Davis will publish a study analyzing the GHGs emitted by beef cattle, 
dairy cow, and pig CAFOs. This type of research will be crucial for 
stakeholders, including farmers, lawmakers, businesses, and consumers, 
to better identify which kind of production systems will reduce GHGs, 
as well as understand the impact food choices can have on both personal 
health and climate change.
    Protecting valuable carbon sinks: Another area of needed additional 
study is the role of forests in mitigating climate change. Keeping 
tropical and domestic forests, which are increasingly threatened by 
feed crop cultivation and unsustainable grazing practices for animal 
agriculture industries, and other carbon sinks intact may be one of the 
best ways for fast, cost-effective GHG mitigation. At the same time, 
protecting forests has the added advantage of protecting wildlife, as 
these animals depend on healthy, functioning forests for habitat and 
survival.
    Assessing climate change-induced impacts on wildlife: Federal 
legislation on climate change should also direct more funding toward 
research on the impacts of changes in temperature and more extreme 
weather events as a result of climate change on endangered species, the 
monitoring of species populations, and the development of potential 
climate change mitigation/adaptation strategies for wildlife.
    Evaluating the potential risks of large-scale anaerobic digesters 
and performing a cost/benefit analysis: In addition, the GHG-reducing 
potential of mitigation technologies--such as the installation of 
large-scale anaerobic digesters at CAFOs or the production of biofuels 
from farm animals' waste and fat--should be more thoroughly 
investigated. Despite some of the potential environmental advantages of 
the production and use of different kinds of biofuels under certain 
circumstances and with strict oversight, these technologies can allow 
large-scale, industrial farmed animal production operators to profit 
from the huge amounts of waste they create--millions of tons of poultry 
litter and the manure from pig and cattle facilities. Bioenergy 
production from farmed animal waste has the potential to perpetuate the 
environmental problems\23\ created by producing and storing massive 
quantities of manure, while giving animal agribusiness the opportunity 
to greenwash its unsustainable practices that jeopardize the welfare of 
animals in the meat, egg, and dairy production industries. These farmed 
animal-based biofuels are not currently reducing consumption of fossil 
fuel because biodiesel and the construction and operation of anaerobic 
digesters require electricity use from the burning of coal or 
petroleum. In addition, unlike the waste created on smaller, more 
environmentally sustainable farms raising both crops and animals, where 
manure and urine can be utilized effectively for fertilizer, factory-
farm waste is produced in extremely large quantities, making it all but 
impossible to use on farmland. Furthermore, the manure excreted by 
animals in factory farms often has a range of toxins including 
antibiotic-resistant residue,\24\ endocrine-disrupting 
chemicals,\25,26\ and other pollutants that not only impair 
environmental integrity, but negatively impact communities surrounding 
industrial farm animal production facilities.\27\
---------------------------------------------------------------------------
    \23\ For more information, see ``An HSUS Report: The Impact of 
Industrialized Animal Agriculture on the Environment'' at www.hsus.org/
farm/resources/research/enviro/industrial
_animal_ag_environment.html.
    \24\ Chee-Sanford J, Aminov R, Krapac I, Garrigues-Jeanjean N, and 
Mackie R. 2001. Occurrence and diversity of tetracycline resistance 
genes in lagoons and groundwater underlying two swine production 
facilities. Applied and Environmental Microbiology 4(67): 1494-1502.
    \25\ Colburn T, vom Saal F, and Soto A. 1993. Developmental effects 
of endrocrine disrupting chemicals on wildlife and humans. 
Environmental Health Perspectives 101:378-83.
    \26\ Soto A, Calabro J, Prechtal N, et al. 2004. Androgenic and 
estrogenic activity in water bodies receiving cattle feedlot affluent 
in Eastern Nebraska, USA. Environmental Health Perspectives 112:346.
    \27\ For more information, see ``Factory Farming in America: The 
True Cost of Animal Agribusiness for Rural Communities, Public Health, 
Families, Farmers, the Environment, and Animals'' at www.hsus.org/farm/
resources/research/enviro/factory_farming_in_america.html.
---------------------------------------------------------------------------
    Requiring CAFOs to measure and reduce their GHG emissions: Finally, 
Congress should require CAFOs to measure their emissions and institute 
plans to reduce GHGs from their facilities. Currently, these operations 
are not required to reduce GHGs, despite their excessive emissions.
    As the impacts of climate change become more evident, the need to 
transition from industrial farm animal production systems to more 
sustainable, responsible farming methods that provide benefits to the 
environment, public health, and animal welfare becomes more time-
sensitive. Thank you for your consideration.
                                                         Sincerely,
                                                      Wayne Pacelle
                                                  President and CEO

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
